<html>
<title> - [H.A.S.C. No. 114-27]FISCAL YEAR 2016 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 114-27]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

       FISCAL YEAR 2016 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE

                               __________

                              HEARING HELD
                             MARCH 24, 2015

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     



                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-229 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
  






















                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Drew Walter, Professional Staff Member
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces.......................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Klotz, Lt Gen Frank G., USAF (Ret.), Administrator, National 
  Nuclear Security Administration................................     3
Roberson, Jessie H., Vice Chairman, Defense Nuclear Facilities 
  Safety Board...................................................     5
Whitney, Mark, Principal Deputy Assistant Secretary for 
  Environmental Management, U.S. Department of Energy............     4

                                APPENDIX

Prepared Statements:

    Klotz, Lt Gen Frank G........................................    25
    Roberson, Jessie H...........................................    50
    Rogers, Hon. Mike............................................    23
    Whitney, Mark................................................    40

Documents Submitted for the Record:

    DNFSB Action Plan for Organizational Culture Change..........    69

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    88
    Mr. Garamendi................................................    90
    Mr. Larsen...................................................    89
    Mr. Rogers...................................................    75
    Mr. Turner...................................................    91
    
 
 
 
 
 
 [H.A.S.C. No. 114-27]
 
 .  FISCAL YEAR 2016 BUDGET REQUEST FOR ATOMIC ENERGY DEFENSE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                           Washington, DC, Tuesday, March 24, 2015.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. The Subcommittee on Strategic 
Forces will come to order. I want to welcome you to our hearing 
on the President's fiscal year 2016 budget request for atomic 
energy defense activities at the Department of Energy.
    I want to thank our witnesses for being here today. We know 
how much work goes into preparing for these hearings, and we 
thank you for putting that time and energy into this endeavor. 
I want to welcome our guests. We have Lieutenant General Frank 
Klotz, Administrator of National Security Administration--
National Nuclear Security [NNSA], a little difference; Mark 
Whitney, Principal Deputy Assistant Secretary for Environmental 
Management [EM], U.S. Department of Energy; and Ms. Jessie Hill 
Roberson, Vice Chairman, Defense Nuclear Facilities Safety 
Board [DNFSB].
    General Klotz, you have a few very able folks in support of 
you today and I want to recognize them: Dr. Don Cook, Ms. Anne 
Harrington, and Admiral John Richardson. If any of our members 
have questions directly for them later in the hearing, we will 
ensure that they can step up to the table and answer those as 
needed.
    Before I hand the floor over to the ranking member, let me 
briefly highlight just a few key issues for today's hearing. 
First, let's be clear on the Nation's defense priorities. Last 
November, then-Secretary of Defense Chuck Hagel said this: 
``Our nuclear deterrent plays a critical role in assuring U.S. 
national security and it is DOD'S highest priority mission. No 
other capability we have is more important.'' This is the 
correct priority, but we must remember that fulfilling the 
nuclear deterrence mission is the shared responsibility of both 
DOD [Department of Defense] and DOE [Department of Energy]. It 
is the people, programs, and infrastructure at NNSA's nuclear 
enterprise that provides our Nation with that deterrent.
    The subcommittee will take a detailed look at NNSA's budget 
request and scrub it hard to ensure it is meeting the 
military's priorities. In the fiscal environment we are facing, 
we must prioritize the core mission of the agency while finding 
efficiencies that can be directly applied to that mission.
    This is a strong budget request for NNSA, but I fear it may 
have only kicked the hardest choices over to Congress. And we 
must hear from our witnesses about how devastating 
sequestration, or Budget Control Act, funding levels would be 
on DOE's defense programs in both NNSA and Environmental 
Management. Allowing sequestration to hit us again in fiscal 
year 2016 would be like designing a nuclear hand grenade--just 
about the dumbest thing we could do.
    Moving to governance and management of DOE and NNSA, we 
have received a report of the Mies/Augustine Advisory Panel, 
and I look forward to receiving General Klotz's response to 
that report. I agree with a lot of what the advisory panel 
recommended, but not all of it. General, I know there is much 
you and I agree on in this area as well. I hope to explore your 
thoughts on where we can work together to fix the longstanding 
problems related to governance and management. We have to get 
on top of these problems if the NNSA is going to be successful 
in the long-term. Leadership and accountability will be the key 
to this.
    Let me end on a bright note. This year, the B61 life 
extension program continues to execute on time and on budget. 
General, please tell the whole NNSA team to keep up the good 
work. This is an important step in rebuilding trust and 
confidence with Congress and the American people and our 
allies.
    Thank you again to our witnesses. I look forward to the 
discussion. With that, let me turn it over to my friend and 
colleague from Tennessee, the ranking member, Mr. Cooper, for 
any opening statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 23.]

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Cooper. Thank you so much, Mr. Chairman. I, too, 
welcome the witnesses, and it is a pleasure to work with you on 
these issues of vital importance to our national security. As 
you noted, no weapons are more important or more dangerous than 
these, and we need to make sure that we are doing the best we 
possibly can to keep them safe, secure, and reliable. I look 
forward to the testimony of the witnesses.
    Mr. Rogers. Thank you. With that, we will ask each of our 
witnesses to make an opening statement, and your full statement 
will be submitted for the record. I would ask you to summarize 
it in 3 minutes. And without objection, we will accept those 
for the record.
    The witness order will be first General Klotz, then Mr. 
Whitney, and then Ms. Roberson. So, General Klotz, you are 
recognized for 3 minutes to summarize your opening statement.

STATEMENT OF LT GEN FRANK G. KLOTZ, USAF (RET.), ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    General Klotz. Chairman Rogers, Ranking Member Cooper, and 
members of the subcommittee, I thank you for the opportunity to 
present the President's fiscal year 2016 budget request for the 
Department of Energy's National Nuclear Security 
Administration. I am pleased to be joined by Mark Whitney and 
Vice Chairman Jessie Roberson, who you have already introduced.
    We value this committee's leadership in national security 
as well as its robust and abiding support for the mission and 
the people of the NNSA. On a personal note, I have benefited 
enormously from the insight and guidance you have so generously 
and graciously shared over the past 12 months.
    Our budget request, which comprises more than 40 percent of 
DOE's budget, is $12.6 billion. This is an increase of $1.2 
billion, or 10.2 percent over the fiscal year 2015 enacted 
level. The funding is extraordinarily important to NNSA's 
missions to maintain a safe, secure, and effective nuclear 
weapon stockpile; to prevent, counter, and respond to the 
threat of nuclear proliferation and nuclear terrorism; and to 
support the capability of our nuclear-powered Navy to project 
power and protect American and allied interests around the 
world.
    By supporting growth in each of our four appropriations 
accounts, this budget represents the commitment by the 
administration to NNSA's vital and enduring missions and to 
NNSA's role in ensuring a strong national defense. This mission 
is accomplished through the hard work and innovative spirit of 
a highly talented workforce committed to public service. To 
provide them the tools they need to carry out their complex and 
challenging tasks, both now and in the future, we must continue 
to modernize our scientific, technical, and engineering 
capabilities and infrastructure.
    In doing so, we are mindful of our obligation to 
continually improve our business practices and to be 
responsible stewards of the resources that Congress and the 
American people have entrusted to us.
    For all of these missions, NNSA will continue to drive 
improvement in acquisition and project management practices and 
policies as well as Federal oversight over the enterprise. 
These missions are just a handful of the critical national 
security work that this budget funds; however, the looming 
possibility of sequestration is a major threat to NNSA's 
missions. In developing the budget, NNSA was directed to 
request the funds we need to accomplish the missions we have 
been tasked to do. The fiscal year 2016 budget request reflects 
this.
    Another round of sequestration caps would most certainly 
have devastating impacts on important programs and projects, to 
include pushing them further out into the future or canceling 
them altogether. However you slice it, sequestration would 
adversely and severely affect our capabilities and our capacity 
to maintain a safe, secure, and effective nuclear weapons 
stockpile, and to reduce nuclear dangers both at home and 
abroad.
    Mr. Chairman, Ranking Member Cooper, I look forward to 
discussing these and other issues with you in more detail 
during the question and answer.
    [The prepared statement of General Klotz can be found in 
the Appendix on page 25.]
    Mr. Rogers. Thank you, General.
    Mr. Whitney, you are recognized for 3 minutes.

STATEMENT OF MARK WHITNEY, PRINCIPAL DEPUTY ASSISTANT SECRETARY 
    FOR ENVIRONMENTAL MANAGEMENT, U.S. DEPARTMENT OF ENERGY

    Mr. Whitney. Good afternoon, Chairman Rogers, Ranking 
Member Cooper, and members of the subcommittee. I am pleased to 
be here today to represent the Department of Energy's Office of 
Environmental Management, and to discuss the positive program 
achievements to date and what we plan to accomplish under the 
President's fiscal year 2016 budget request.
    Our request for $5.818 billion will allow the EM program to 
continue to make safe cleanup of the environmental legacy a 
priority, a legacy that was brought about from five decades of 
nuclear weapons development and government-sponsored nuclear 
energy research. The request includes $5.055 billion for 
defense environmental cleanup activities; an additional $472 
million for the defense contribution to the Uranium Enrichment 
Decontamination and Decommissioning Fund; a total of $542 
million for the Uranium Enrichment Decontamination and 
Decommissioning Fund cleanup activities; and $220 million for 
non-defense environmental cleanup activities.
    We continue to make significant cleanup progress. We have 
produced nearly 4,000 canisters of vitrified high-level waste 
at Savannah River Site in South Carolina, converting it to a 
solid glass form suitable for long-term storage or permanent 
disposal. This is about half the sludge in the Savannah River 
Site tanks.
    At Hanford, we have completed the bulk of the river 
corridor cleanup project, including more than 500 facilities 
and 1,000 remediation sites.
    The fiscal year 2016 budget request will allow us to 
continue to make significant progress in our ongoing cleanup 
priorities of liquid tank waste treatment, and recovery of the 
Waste Isolation Pilot Plant [WIPP]. For example, the Idaho 
National Laboratory, the request supports operations of the 
Integrative Waste Treatment Unit. It also covers and supports 
cleaning and grouting activities to support closing of the 
final four tanks there. It also supports high-level waste tank 
progress at the Savannah River Site, including producing 130 
canisters of vitrified waste derived from tanks and processed 
through the Defense Waste Processing Facility.
    The 2016 request will allow us to expedite tank waste 
treatment at the Office of River Protection in Hanford through 
the direct-feed low-activity waste approach, and this allows us 
to continue designing the low-activity waste treatment system, 
and continuing construction of the low-activity waste facility, 
the analytical laboratory, and balance of the facilities at the 
Waste Treatment Plant.
    The 2016 request also provides funding in accordance with 
the Waste Isolation Pilot Plant recovery plan. There are many 
sites around the EM complex, of course, that depend on the WIPP 
facility and that have transuranic waste at its plant for 
disposal.
    So that resumption of operations at WIPP is a priority for 
us, and we will resume waste emplacement activities in 2016. 
The request also completes major facility clean-out and 
demolition projects, including the Plutonium Finishing Plant at 
Hanford.
    In closing, I am honored to be here today representing the 
Office of Environmental Management. We are committed to 
achieving our mission, and will continue to apply innovative 
environmental cleanup strategies to complete work safely and 
efficiently, thereby demonstrating value to the American 
taxpayer.
    Thank you, and I would be pleased to answer any questions 
that you may have.
    [The prepared statement of Mr. Whitney can be found in the 
Appendix on page 40.]
    Mr. Rogers. Thank you, Mr. Whitney.
    Ms. Roberson, you are recognized for 3 minutes to summarize 
your opening statement.

STATEMENT OF JESSIE H. ROBERSON, VICE CHAIRMAN, DEFENSE NUCLEAR 
                    FACILITIES SAFETY BOARD

    Ms. Roberson. Thank you, Chairman Rogers and Ranking Member 
Cooper, and other members of the subcommittee. I am the Vice 
Chairman of the Defense Nuclear Facility Safety Board, and I 
would like to acknowledge the other two members sitting 
directly behind me, Mr. Sullivan and Mr. Santos.
    Last year's radioactive release at the Waste Isolation 
Pilot Plant demonstrated the significant impact likely to 
result from a radiological incident at any DOE defense nuclear 
facility. Waste disposal operations have already been shut down 
for over 13 months. This has impacted cleanup activities across 
DOE's entire defense nuclear complex, and illustrates that even 
activities judged to be relatively low risk can still have 
major safety consequences and large impacts on DOE's ability to 
accomplish its mission when radioactive materials are involved.
    The board is the only agency that provides independent 
safety oversight of DOE's defense nuclear facilities. The 
board's budget is devoted to maintaining and supporting an 
expert staff of engineers and scientists, nearly all of whom 
have advanced technical degrees, to support us in accomplishing 
our highly specialized work.
    The President's budget request for fiscal year 2016 
includes $29.15 million in new budget authority for the board. 
It will support a planned staff of 125 personnel. This level of 
staffing is needed to provide sufficient independent safety 
oversight of DOE's defense nuclear complex, given the pace and 
scope of DOE's activities.
    The board provides safety oversight of a multitude of 
operations critical to national defense. These operations 
include assembly and disassembly of nuclear weapons, 
fabrication of plutonium pits and weapons components, 
production and recycling of tritium, nuclear criticality 
experiments, sub-critical experiments, and a host of activities 
to address the radioactive legacy resulting from 70 years of 
nuclear weapons operations.
    The board supports and closely oversees DOE and NNSA's 
efforts to develop new defense nuclear facilities that 
integrate safety into their design at the very earliest stages. 
The delays in NNSA's programs to modernize its uranium and 
plutonium capabilities require the board to provide continued 
safety oversight of ongoing defense programs work, and aging 
nuclear facilities that do not meet modern safety standards.
    Given the age and condition of many of DOE's defense 
nuclear facilities, the board is placing particular emphasis on 
emergency preparedness and accident response capabilities 
across the complex.
    Let me add in closing that the board and DOE together have 
built a constructive working relationship. All board members, 
myself, Mr. Sullivan, and Mr. Santos, understand that a safe 
nuclear security enterprise is our priority.
    That concludes my statement. Thank you.
    [The prepared statement of Ms. Roberson can be found in the 
Appendix on page 50.]
    Mr. Rogers. I thank you. Thank you all for those opening 
statements. I will start with questioning now. I will recognize 
myself for the first round of questions.
    General Klotz, you have a unique perspective to offer this 
committee on an issue we focused on for some time: governance 
and management at DOE and NNSA. As the first commander of the 
Air Force Global Strike Command, you were one of NNSA's primary 
customers for nuclear weapons work, and now as Administrator, 
you are in charge of the NNSA. Given your background and 
experience, I fear that if you can't fix these problems, nobody 
can.
    And let me be clear. I firmly believe that getting NNSA's 
governance and management on track for the long-term must be 
one of your core duties.
    You owe us a report right now on your views of the Mies/
Augustine Advisory Panel's recommendations. As I said in my 
opening remarks, I agree with a lot of their recommendations, 
but certainly not all of them.
    So tell me, what are your views that you can share with us 
today on what that report is going to tell us?
    General Klotz. I thank you, Chairman. And let me say that I 
take your charge very seriously that the governance and 
management of NNSA is, indeed, one of our top priorities, as we 
move forward.
    As far as the Augustine/Mies Panel is concerned, we have 
stated publicly that we appreciate the hard and long work that 
the members of the panel put in in giving some very thoughtful 
consideration to the issues that face NNSA and the entire 
nuclear security enterprise in terms of its governance and its 
management, and we appreciate the counsel that they have given 
in terms of their recommendation.
    As we look across the broad 19 overarching recommendations, 
and 63 sub-recommendations, we find, like you, we are in 
agreement with most of them. And, in fact, many of the things 
that they have suggested, for instance, in the area of 
tightening up program management, instilling more rigor and 
discipline in project management, in cost estimation, in the 
relationship between NNSA and the military services and the 
relationship between NNSA and its laboratories and production 
plants across the country are things that under Secretary 
Moniz's leadership and under the leadership team that is 
currently now in place at NNSA, we have been working very, very 
hard on.
    So we take that as, to some extent, validation, 
justification for a number of things that we have already moved 
out very smartly on and are continuing to develop as we move 
forward.
    So I look forward to finishing off the report. I expect 
some time in the next 3 to 4 weeks, we will be able to deliver 
it up here, and I look forward to the opportunity to discussing 
the specific comments that we have in greater detail with you 
and other members of the committee.
    Mr. Rogers. Great. Many of the Mies/Augustine 
recommendations align with similar efforts this committee has 
undertaken in the past: reducing transactional oversight, 
clarifying roles and responsibilities, and improving cost 
estimation and program management. And although we try to help, 
many of these problems are not fixable by Congress, but 
Congress can and will continue to provide guidance, direction, 
and momentum.
    So, General, how can this committee help you address those 
issues?
    General Klotz. Well, first of all, I think you have taken 
the first most important step, and that is to express your 
interest, your concern in the governance and management of the 
NNSA.
    It is so very important for those individuals, those men 
and women who work within our enterprise, to know that the 
senior leadership of this government in both the executive 
branch and the legislative branch understand the importance of 
the enduring mission which those people perform and care about 
its safe and successful execution.
    So, again, as we come forward with this report, we will 
have some specific comments on the recommendations in there 
that we can discuss with you in terms of the way ahead.
    Mr. Rogers. The third area I want to ask about is 
accountability. As a part of our effort to reform DOE and NNSA, 
we have spent a lot of time in this committee seeking 
accountability from major failures, the break-in at Y-12, the 
stunning failure of design and oversight with the UPF [Uranium 
Processing Facility] that wasted at least half a billion 
dollars of taxpayers' money, and the decades of wasted effort 
with CMRR [Chemistry and Metallurgy Research Replacement 
facility]. The list is long.
    General, these failures were before your time as the 
Administrator, but are you aware that not a single Federal 
official was terminated after these disasters? Several retired 
and were moved to other jobs, but not one was fired.
    So, General Klotz, can you assure this committee that you 
will hold Federal employees and contractors fully accountable 
for failures of this magnitude? This committee would like to 
see a message sent.
    General Klotz. Yes, sir, we will. And I think one of the 
things that we have worked very hard on is to restore good 
order and discipline and a rigorous approach to both security 
and to program and project management in the past several 
months, and we are beginning to see some of the results of our 
effort in that way. And we will not shrink from holding either 
Federal officials or the management and operating [M&O] 
contractors accountable for their performance in both--when 
they do well, to recognize that and to congratulate them, as 
you already have in your opening statement. By the same token, 
when they fall short of our standards, to make sure that we 
communicate to them to that.
    I think a review of the most recent cycle of fee 
determination shows that we will take tough action when what we 
expect from our people and our M&O contractors do not meet our 
expectations.
    Mr. Rogers. Great. I thank you. And I will now recognize 
the ranking member for any questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. Continuing the 
chairman's theme, let us talk about the WIPP disaster. Hundreds 
of millions of dollars to remediate, a year or more of delays, 
ripple throughout the entire nuclear establishment. Who has 
been held accountable in the WIPP disaster?
    Mr. Whitney. Thank you, Congressman Cooper. Yes, the--and 
as the general pointed out, you know, a lot of times the 
accountability is not as visible, sometimes it is very visible, 
but we are very focused on holding our folks accountable.
    The general pointed out fee determinations. And I think you 
will see with one of the parties that was responsible for the 
WIPP incident, they were held accountable in that fee 
determination area.
    We are very focused on recovering the operations and 
resuming operations of that facility. Sir, as you pointed out, 
it is critical to the cleanup program. We are making 
significant progress under fairly difficult circumstances. The 
team there at WIPP, both the Federal side and the contractors, 
have done significant amount of work, and we are focused on 
resuming operations in 2016.
    Mr. Cooper. So some time in the calendar year of 2016 we 
will see a resumption?
    Mr. Whitney. Yes, sir. We issued a recovery plan in 
September, September 30 of this past year, and it calls for us 
to resume operations by the end of the first quarter of 
calendar year 2016, and that is currently our plan. There are a 
few things that will be coming out fairly soon, and that is the 
Technical Assessment Team report on what exactly happened, 
looking at the drum where we had the incident, as well as the 
Accident Investigation Board final report. There will be 
corrective actions that will come out of that.
    The Secretary has stated that our goal is the end of March 
2016 for resuming operations, but we will only do so when we 
are confident that it is safe to do so. So we are focused on 
that, but we still have the end of March 2016 as our goal. Yes, 
sir.
    Mr. Cooper. Well, that is the timeline. How much, though, 
is it estimated to cost?
    Mr. Whitney. The cost, we don't know exactly how much the 
cost will be, because a lot of it will depend on the permanent 
ventilation system and exhaust shaft. We have begun to request 
that money, as you know. Right now the range for that project, 
because of the stage of the project, it is pre-Critical 
Decision 1, and so we are going through the alternatives 
analysis. As we further narrow the design down, we will get a 
better sense of the total cost, but right now, the range for 
that project is $77 million to $309 million. I think later this 
year we will have a better estimate of the cost of that, of 
that project, and that will really be the large portion of WIPP 
recovery costs.
    Mr. Cooper. And this will all be overseen by Ms. Roberson 
and the Defense Nuclear Safety Board?
    Ms. Roberson. Yes, sir, Mr. Cooper. We are providing 
oversight to the project, and we too have looked at--I mean, we 
are just over 100 people, so we tend to prioritize, but we have 
placed additional emphasis on our oversight investment for this 
project.
    Mr. Cooper. So back to Mr. Whitney. If the price tag is 
between $70 million and $300 million, how much is the 
contractor going to be held responsible for?
    Mr. Whitney. The contractor also has a fee determination 
very soon, and so we will be looking at this, of course. There 
have been a couple of actions that we have already taken with 
respect to the contract and the fee called conditional payment 
of fee actions, which have reduced the amount that they are 
able to earn significantly. I believe within the next several 
weeks, the final fee determination will be made and made 
public.
    Mr. Cooper. So, then, that will be publicly available, that 
information?
    Mr. Whitney. Yes, sir.
    Mr. Cooper. General Klotz, you seem to be doing a good job 
running an alphabet soup of an agency. There are many 
challenges, but as Chairman Rogers said, if anybody can do it, 
you are supposed to be the man. We appreciate when you bring in 
projects on time and under budget. That is great. I know you 
have a lot on your plate, both with life extension programs and 
with construction projects.
    So we on this committee want to help you with the full 
range of your responsibilities, including your nonproliferation 
duties and the management of change that you made to include 
counterterrorism in that, that you are assured that that will 
give us better ability to deter anyone who might be thinking of 
a nuclear incident in this country and better opportunity to 
not only prevent that from happening, but to identify the 
wrongdoers and take prompt action to protect the American 
people.
    General Klotz. Yes, sir. The change that we made was, in a 
sense, how we view the problem of dealing with nuclear 
proliferation and nuclear terrorism, both at home and abroad in 
a very, very general sense.
    You mentioned alphabet soup. Up until we made this change, 
we had a lot of different programs that were created in the 
aftermath of the fall of the Soviet Union, and the work that we 
did there under the Nunn-Lugar initiatives and other 
Cooperative Threat Reduction activities. And a couple of years 
ago, Ms. Harrington, who is sitting behind me, started an over-
the-horizon look at positioning our efforts in this area for 
the longer term to deal with an increasingly complex and 
increasingly dangerous world.
    Our thought in approaching this is that we should think of 
this issue from start to finish, from cradle to grave as a 
continuum of activities that run from protect against the 
spread of special nuclear materials that would fall in the 
hands of would be proliferators and terrorists; and then if 
that fails, be able to counter that, and then if that fails, be 
able to respond to any nuclear radiological incident.
    So it is a continuum of activities. In fact, just yesterday 
we released the first-ever comprehensive report on the full 
range of activities that fall within this particular mission 
space. So we see that as a compendium, as a companion volume to 
the Stockpile Stewardship and Management Plan, which we 
produced for some number of years now that describes in detail 
what we do in the area of weapons activities.
    Mr. Cooper. May I suggest that your duties in this regard 
are the single-most important function of government, and the 
only thing the public will care about if there were to be a 
nuclear incident. And I think most of the so-called experts 
predicted that there would be one within 10 years of 9/11, and 
thank God that hasn't happened, but as the clock ticks, we have 
to be increasingly vigilant. So we need to make sure that you 
are doing everything possible, and that we are doing everything 
possible to make sure this never happens in this country.
    If you need anything, anything, call on us. And I know that 
all of your budget categories are going up, at least if the 
President's request is adhered to. And I could not agree with 
you more that we need to get rid of sequestration, but this has 
got to be job one for the country.
    I see that Admiral Richardson is behind you. I don't want 
to stop my questioning without noting that Naval Reactors over 
many years seems to have done an exceptional job of keeping up 
with its duties, so I hope that your fine example will spread. 
If you do have dirty laundry, at least you have kept it more 
hid than the other services. I hope it is just a lack of dirty 
laundry. But, you know, the tradition that Naval Reactors seems 
to have had is a truly remarkable one, so I hope you can 
continue that.
    I have no more questions at this time, Mr. Chairman.
    Mr. Rogers. Thank the ranking member. Chair now recognizes 
the gentleman from Oklahoma, Mr. Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. And thank you for 
the distinguished panel being here today and testifying.
    General, I think it was last year we got a report from 
Secretary of Defense Hagel indicating that our requirements for 
our nuclear capacity was 50 to 80 plutonium pits per year. Is 
that still the requirement?
    General Klotz. That is the objective which we are working 
for as part of a comprehensive plutonium strategy.
    Many, many years ago, when we had the facility at Rocky 
Flats in California, we had the ability to produce thousands of 
nuclear weapon pits each year. Of course, that was at the 
height of the Cold War, when our stockpile was much, much 
larger than it is today. That facility was shut down. We 
moved--or tried to demonstrate the ability to develop pits, 
manufacture pits, fabricate pits at Los Alamos National 
Laboratory in New Mexico. And we are going through a sustained 
process of recreating the ability to produce a smaller number 
of pits per year, ultimately up to 50 to 80 per year, in order 
to support life extension programs that we see coming in the 
2020 to 2030 timeframe as we move there.
    Mr. Bridenstine. So is the administration's policy 50 to 80 
pits?
    General Klotz. That is what the Department of Defense and 
the Department of Energy have agreed to, the Nuclear Weapons 
Council, which passes judgment on these issues.
    Mr. Bridenstine. In the fiscal year 2015 NDAA [National 
Defense Authorization Act] signed by the President, section 
3112 included a sense of Congress that ``Timelines for creating 
certain capacities for production of plutonium pits and other 
nuclear weapons components must be driven by the requirements 
to hedge against technical and geopolitical risk, and not 
solely by the needs of life extension programs.''
    Do you agree with that?
    General Klotz. I agree with that.
    Mr. Bridenstine. The administration has, since 2010, the 
2010 Nuclear Posture Review, articulated a policy that it wants 
to develop a ``responsive nuclear infrastructure.''
    Can you share with us what that means?
    General Klotz. Well, in fact, sir, what we were just 
talking about is a good example of a responsive infrastructure. 
If you have the capability to fabricate pits, if you have the 
capability to fabricate other nuclear and non-nuclear 
components in a modern, efficient, and agile production system, 
then you can adjust what your requirements are to deal with any 
technical challenges that may arise through the aging of a 
particular warhead, or any significant changes in the political 
military environment.
    Mr. Bridenstine. Do you believe we currently have a 
responsive nuclear posture?
    General Klotz. We are pretty agile and we are pretty 
flexible, but we could be certainly more so.
    Mr. Bridenstine. The life extension program for the W80 
nuclear warhead for the long-range standoff [LRSO] cruise 
missile is accelerated by 2 years in this year's budget 
request, which is a good thing. It now aligns with NNSA's 
program with the statutory requirement in the fiscal year 2015 
NDAA that you produce the first warhead in this program by 
2025. Where does the W80 warhead and the larger LRSO missile 
rank in the Nuclear Weapons Council's priority list?
    General Klotz. It is right up there. It is one of the life 
extension programs we are going with. I wouldn't rank it any 
higher or any lower. It is a top priority.
    Mr. Bridenstine. Will it happen in fiscal year 2015? I 
guess, will you commit that in fiscal year 2015, fiscal year 
2016 we will see movements for the next steps in this program?
    General Klotz. We have already had some fairly significant 
movements in the W80, we call it the W80-4 life extension 
program [LEP], which will be the warhead that the Nuclear 
Weapons Council agreed would be the one we would field with the 
Air Force's long-range standoff capability. We are moving 
towards----
    Dr. Cook. 6.2 on July 1.
    General Klotz. So later this year we will take the next 
step in that process. So this is something which we take very, 
very seriously.
    Mr. Bridenstine. What would be the impact if Congress 
significantly cut this program or canceled it altogether?
    General Klotz. Well, that is a very good question, and 
thank you for asking it. I think it goes without saying that 
any significant cuts to this particular program, or a general 
sequestration across the board would adversely affect all of 
our programs in one way or the other.
    Now, whether it would--if you had a general cut, we would 
have to engage in discussions with Department of Defense. As 
the chairman said in his opening statement, they essentially, 
you know, are the customers for what we deliver in the way of a 
warhead, so we would want to make sure that we were synced up 
with whatever adjustment they had to make for delivery systems. 
It would not make sense for us to deliver a warhead if there 
wasn't a delivery system ready for it and vice versa. So that 
would be something that we would have to work out 
collaboratively through the Nuclear Weapons Council process.
    Mr. Bridenstine. Well, let's hope that doesn't happen.
    I will yield back.
    Mr. Rogers. Thank the gentleman. Chair now recognizes the 
gentleman from California, Mr. Garamendi, for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman. And, gentlemen, 
thank you for your work.
    Just to continue following up on the previous questions, it 
looks like we are somewhere north of $17 billion for the W80-4 
nuclear warhead LEP program, and the cruise missile that goes 
with it. You have accelerated this discussion by, I think, an 
incomplete answer. Why was the 2-year acceleration required?
    General Klotz. The acceleration, moving it up 2 years from 
2027 to 2025 for the first production unit was taken largely at 
the request of the Department of Defense, U.S. Strategic 
Command, and the Air Force for an early delivery of the 
capability which the long-range standoff system represents.
    As Admiral Haney, the commander of U.S. Strategic Command, 
has said in open testimony, basically it reflects two concerns: 
One is the increasing sophistication of air defenses around the 
world; and the second is some concerns about the aging of the 
missile, that is the current air-launched cruise missile.
    So they felt it was prudent from a military requirements 
point of view to move that up. And we support them on that. 
And, in fact, perhaps more detail than is needed, but it 
actually fits in very, very nicely with our work schedule and 
it will allow us to have sort of a smoother approach to how we 
do the life extension programs over an extended period of time.
    Mr. Garamendi. Okay. Not okay, but thank you for the 
information. We were talking about responsive infrastructure 
before, 50 to 80 pits required. And at what cost? The 
infrastructure; not for the pits, but for the infrastructure?
    General Klotz. I would have to get you--I could take that 
and get you the full cost of the plutonium strategy out through 
all the years. For the coming year, what we are asking for us 
in fiscal year 2015, Congress enacted 335--I am sorry, 35.7 for 
the plutonium strategy and replacement of the chemical, 
metallurgical laboratory at Los Alamos. That is going up to 
1.55 as our budget request for 2016. As we continue to----
    Mr. Garamendi. With a B?
    General Klotz. I am sorry?
    Mr. Garamendi. $1.55 billion?
    General Klotz. Million.
    Mr. Garamendi. Million. Okay. And that is the next 
investment on, we don't know the--you don't have the total cost 
of the facility?
    General Klotz. We do have. We can get you that number. I 
don't have it.
    Mr. Garamendi. You don't have it with you.
    General Klotz. If I could carry numbers around in my head, 
I would have stayed a math major instead of becoming a poli sci 
major.
    Mr. Garamendi. Well, I am pleased that you chose the career 
you have. The 50 to 80 pits is to actually produce that number 
of pits?
    General Klotz. It is to show the capacity to produce that 
number of pits, is what--as we understand----
    Mr. Garamendi. The assumption is at some point we would 
need to produce at least 50 to 80 pits?
    General Klotz. That is the assumption, yes, sir.
    Mr. Garamendi. And it is based on what assumption? What is 
the----
    General Klotz. The assumption it is based on as we move 
into a life extension program that would affect the W78, which 
is a warhead used on the U.S. Air Force's intercontinental 
ballistic missile and would also be our first interoperable 
warhead [IW], that we would need to be able to produce pits for 
that.
    Mr. Garamendi. What do you mean ``interoperable''?
    General Klotz. Perhaps maybe I will let Dr. Cook describe 
this since he came here and we have an open mike for him.
    Mr. Cook. Happy to do that. By ``interoperable,'' which is 
part of the three-plus-two strategy, it is an agreed Nuclear 
Weapon Council strategy to move eventually to three 
interoperable ballistic missile systems. That brings down, in 
the long haul, some of the technical hedge that we carry to 
provide a backup against technical failure for what we have, 
and more importantly, as weapons age. Specifically, it means 
the ability to have a common nuclear explosive package fit into 
each of the large air shells, one for the Air Force, which is 
the Mark 21; one for the Navy, which is the Mark 5, to do the 
adjustment and all of the balancing required for flight 
characteristics with the non-nuclear components. And we pursued 
this year after year. It is well beyond the stage of 
conceptual.
    Within the last 12 months, we believe that we have proven, 
to the best extent on paper that this is possible, and now we 
will begin maturing the technologies in order to resume the 
schedule. As the Administrator said, there was a 5-year delay 
in IW-1, in other testimony, and some money is shown in the 
fiscal 2020 year budget to resume that work.
    Mr. Garamendi. I am out of time, Mr. Chairman, but I want 
to get into that in much more detail.
    Mr. Rogers. Okay. We will have another round.
    Mr. Garamendi. And I will come back. Thank you.
    Mr. Frelinghuysen. Chair now recognizes the gentleman from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. Thank all for being 
here. Thank you for your service to our country. And I am just 
going to jump right in, General Klotz. You have talked about 
the responsive infrastructure and you have been asked about 
that. Isn't that lacking, because there is a key uranium 
facility and a key plutonium facility that need to be planned 
and built, and we are not doing that?
    General Klotz. We could take--we are working on both of 
those, and we can take them separately. On the plutonium side, 
as I indicated earlier in an earlier response, we had the 
capability at one time at Rocky Flats in Colorado to produce 
literally thousands of pits per year for a much larger 
stockpile than we now have. We no longer have that kind of 
capacity, and we foresee a need in the future for being able to 
produce a greater number of pits than we can do on basically a 
handful a year now at Los Alamos. So we are building up that 
capability.
    What has changed from the past is, at one time we were 
looking at constructing one large facility to replace an aging 
facility where we did analytical chemistry and material 
characterization related to plutonium at Los Alamos, and now we 
have adopted a more modular approach, re-purposing some 
existing facilities, moving equipment around, and beginning the 
process of design for some external modules, which will allow 
us to increase the capacity of space that we have. So that is 
underway. We have got money in the budget, we have an ask and a 
request for that.
    Mr. Lamborn. How far away is that from being done?
    General Klotz. What is the expectation?
    Mr. Cook. You are looking at--the expectation for the 
plutonium is to have most of the capabilities in for the first 
part of the strategy by 2020, and for the second part by about 
2025. We will execute a buildup, in a rational way for 
capability at 10, 20, and 30 pits per annum and 24, 25, and 26. 
We will achieve the capability with plutonium and demonstrate 
at the 50 to 80 level in 2030 that capability.
    Mr. Lamborn. Well, I am very concerned, because this and 
the uranium facility were part of what was promised by the 
administration to get the Senate to ratify the New START 
[Strategic Arms Reduction] Treaty. And when I see that elements 
of this are 15 years away, up to 15 years away, I am just 
really concerned that the administration hasn't been keeping 
its end of the bargain. That is, frankly, what my concern is.
    General Klotz. If I could shift to uranium, since you asked 
about that, our principal facility for doing that is the Y-12 
facility in Oak Ridge, Tennessee, and there we do have the 
capacity to conduct uranium operations. Our concern, however, 
is if much of the work is done in a facility, we call it 9212, 
which is decades old, is really showing signs of wear and tear, 
and we are concerned obviously about the safety not only of our 
operations there, but more importantly, the people, the 
employees.
    Mr. Lamborn. And how far away is that from being----
    General Klotz. Again, we have changed our approach from 
doing a big-box approach where you put everything into one box, 
and, therefore, every square foot costs as much as the most 
expensive requirement driven by security and safety, to having 
a distributed, segregated approach where we segregate 
activities by hazard and security category.
    Mr. Lamborn. Okay. Lastly, I want to address Admiral 
Richardson. If you could come up to the empty mike, that would 
be great. And by the way, I know the chairman recently led a 
congressional delegation [CODEL] to Idaho, and you were there 
and hosted us at the Naval Reactors. General Klotz, you were 
there, and I really appreciate that. I think we all got a lot 
out of that.
    And since that visit, I have gone to a local firm in my 
district, Cogitic. A couple of brothers are getting a business. 
It is amazingly capable in producing parts for nuclear 
submarines, like the valves, the ball valves and things like 
that. So it is just amazing all that goes into the nuclear 
enterprise from start to finish. But real quick--oh, gosh. I 
have run out of time.
    Mr. Rogers. Go ahead.
    Mr. Lamborn. Okay. I will just ask this question. And thank 
you, Mr. Chairman, I have to run to the floor on what they are 
discussing right now, but my question is this: On low-enriched 
uranium, there are some who talk about, well, that can be used 
as a substitute for highly enriched uranium. Is there really 
any promising future to a military capability for low-enriched 
uranium?
    Admiral Richardson. Sir, thank you very much for your kind 
words and thank you for the question. We do produce a report to 
Congress about the feasibility of using low-enriched uranium. I 
have a copy of that report here which I submitted in January of 
2014. And with the current state of technology right now, if we 
were to substitute low-enriched uranium, it would only be even 
technically considered for an aircraft carrier application.
    And, because of the reduced energy in the low-enriched 
uranium, with the current technology, we would introduce 
another refueling event in the life of that carrier. That 
refueling event would come at a cost of about a billion dollars 
and would remove that carrier from being at sea while it comes 
into the shipyard to do that refueling operation as well.
    We have done some recent exploratory work, and, you know, 
the potential exists that we could develop an advanced fuel 
system that might increase uranium loading and make low-
enriched uranium possible while still meeting, you know, some 
very rigorous performance requirements for naval reactors on 
nuclear-powered warships. By no means is success assured by 
that.
    Mr. Lamborn. Admiral, I am going to have to run, but----
    Admiral Richardson. All right.
    Mr. Lamborn [continuing]. Do you see a current military 
benefit to using low-enriched uranium today?
    Admiral Richardson. From a pure military standpoint, no, 
sir.
    Mr. Lamborn. Okay. Thank you very much. Thank you all for 
being here and for your service.
    Mr. Rogers. I thank the gentleman.
    Now let's talk about NNSA on deferred maintenance. I and 
several other members of this subcommittee have had the 
opportunity to visit Y-12, the labs, the Naval Reactors 
facility in Idaho with you, General Klotz and Admiral 
Richardson, and other parts of the NNSA enterprise.
    At each stop, I ask for the ugly tour to see some of the 
massive backlog of deferred maintenance at all of these 
decrepit facilities, and we saw a lot of ugly. I am putting 
some slides up on the monitors of the recent roof collapse at 
the lithium facility at Y-12. A huge chunk of concrete fell 
into an operational work area. We are lucky no one was hurt or 
killed. We have also got some pictures from Pantex, which has 
many areas in equally as bad shape.
    Because all of these places are inside secure facilities, I 
don't think the American people are aware of just how bad these 
buildings have gotten. We have got weeds growing up out the 
floors of work areas at Pantex; $14 million diagnostic 
equipment covered with tarps because of the lab roof leaks; 
duct tape, which I like duct tape, don't get me wrong, duct 
tape and plastic around pipes carrying radioactive solutions.
    General, you and Secretary Moniz have sought to arrest the 
growth of the deferred maintenance backlog at NNSA. That is 
laudable, and I know you will have this committee's full 
support, but you haven't requested enough money to actually 
reduce the backlog. What more could you be doing if provided 
additional funding?
    General Klotz. Well, thank you, Mr. Chairman. And thank you 
for you and the committee's leadership on this issue. You are 
absolutely right. We face a tremendous challenge. More than 40 
percent of NNSA's facilities--more than half of NNSA's 
facilities are over 40 years old. Thirty percent of them date 
back to the Manhattan Project, that's World War II. And our 
deferred maintenance figures have risen to nearly $3.7 billion, 
and without arresting that, would continue to grow.
    You rightly pointed out that Secretary Moniz has declared 
that we will arrest the rise of deferred maintenance across the 
entire DOE enterprise, not just at NNSA.
    We do have some success stories in the past couple of 
years. This past year, 2014, we moved into a brand-new facility 
at Kansas City, moving out of a World War II-era factory, 
aircraft engine factory, into a brand-new state-of-the-art 
facility, which we attained through a lease with the General 
Services Administration, GSA, with a private developer. In the 
process, we have reduced our footprint from roughly 3 million 
square feet to half that, and reduced our operating costs by 
$100 million a year.
    And in Pantex, we have completed construction, along with 
the help of U.S. Army Corps of Engineers, of a High Explosives 
Pressing Facility and begun the process of certifying. So we 
are making inroads.
    But what I have observed, both in the NNSA and in my 
previous career in the Air Force, is, when dollars are 
constrained, the first dollar goes to the pointy edge of the 
spear, or goes to the mission program; the next dollar goes for 
the next mission of priority. And it is only after you have 
been able to expense those particular requirements do we pay 
attention to the infrastructure.
    Well, quite frankly, we have deferred that too long and the 
bill has come due, and we need to take some extraordinary 
measures: One, to fund these, but also to think of new and 
creative ways in which we can deliver facilities for our people 
to work in.
    Mr. Rogers. Do you, offhand, have a total number it would 
take to remedy these deferred maintenance issues?
    General Klotz. Well, right now our backlog right now is 
$3.7 billion to do maintenance. Now, we continue to chip away 
at that, and I think we are getting smarter, or at least more 
analytical in our approach. We have adopted two processes 
recently, which the Department of Defense uses to grade the 
condition of its facilities and to set the priorities, and I 
think that rigor and discipline will help us refine those 
numbers even more so.
    Mr. Rogers. Great. All right, General. You owe us a plan 
for two or more public-private partnerships you wish to pursue 
to get workers out of old, dilapidated buildings and into 
modern facilities. Do you see these kind of alternative finance 
agreements as beneficial to your efforts to get out of these 
old facilities faster?
    General Klotz. We do. And as I said, we have had several 
successes. Two facilities, at Y-12, at Oak Ridge were built in 
that way. The Kansas City plant has been built in that way. And 
we will be bringing some additional ideas to you of ways in 
which we can get people out of facilities, particularly the one 
at Pantex, into modern, more efficient buildings.
    This is important not only for conduct of operations, it is 
also extraordinarily important, in my view, for the recruitment 
and retention of the highest caliber people out of our 
technical schools and out of our graduate schools, because 
given the opportunity to go work in a facility which would use 
their scientific, technical, and engineering skills that is 
brand-new and modern, like many high tech firms are able to 
offer, or something that is, as you described it, dilapidated, 
it is a tough sell for recruiting and retaining people into 
this enterprise.
    Mr. Rogers. Yeah. I have been to those facilities, and I 
have shared this with you and I will share with the panel and 
the guests here. These people that we have working are very 
well-educated. They have options. And, first of all, I am 
amazed that we are able to--and it says a lot about their 
patriotism, and their belief in how important their work is 
that they suffer these intolerable conditions. When you see 
somebody with these educational credentials working in some of 
the circumstances we just put up on the board, it is just--it 
is indefensible.
    Ms. Roberson, I will talk to you about deferred 
maintenance.
    Ms. Roberson. Yes, sir.
    Mr. Rogers. What are the safety impacts of NNSA's 
deteriorating infrastructure and the $3.6 billion backlog of 
deterred maintenance you just heard General Klotz reference? 
And is all of this decrepit infrastructure becoming a safety 
hazard?
    Ms. Roberson. Mr. Chairman, the consequences are, as I 
stated in my opening statement, the questionable reliability of 
safety controls and the health of your safety management 
programs. So we have really been focusing our oversight, both 
for NNSA and EM, because EM also has aging facilities too, 
really focusing on the reliability of their safety controls, 
the health of their safety management programs, criticality 
safety, radiological safety, fire protection, and also on 
emergency management, which, at the end of the day, must really 
be healthy to ensure you can respond to anything before it 
becomes something more than a small incident.
    Mr. Rogers. What is your view of NNSA's plan to remain in 
these facilities for decades to come?
    Ms. Roberson. Well, we think that newer facilities that 
meet modern safety standards would be important, I think the 
board's been consistent in saying that in the recent years. We 
also think that Environmental Management should continue to get 
out of facilities that are decrepit, you know, undo them before 
they undo themselves. And so I think the board has been 
consistent in staying supportive of NNSA's efforts to, you 
know, establish, whether it is big box or modular, whatever 
they choose, but to establish infrastructure for the workers 
and to ensure protection of the public that meet modern safety 
standards.
    Mr. Rogers. Has DNSFB provided NNSA with a prioritized list 
of the safety concerns that you have about these facilities?
    Ms. Roberson. I don't know if we have provided them a 
prioritized list. We certainly give them lists. We have the 
opportunity to discuss the things that we are seeing that we 
think are a high priority from a safety perspective on a 
routine basis.
    Mr. Rogers. Great. Thank you.
    The chair now recognizes the ranking member for any 
additional questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman. I will just withhold 
until the classified session.
    Mr. Rogers. Okay. With that, we have just got a couple of 
items we need to discuss for the record in classified, secure 
session with General Klotz. So with that, we will recess this 
for about 5 minutes to walk to the SCIF [Sensitive 
Compartmented Information Facility], and then we will 
reconvene.
    [Whereupon, at 4:32 p.m., the committee proceeded in closed 
session.]

?

      
=======================================================================



 
                            A P P E N D I X

                             March 24, 2015

=======================================================================

 
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 24, 2015

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

      
  
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 24, 2015

=======================================================================

      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
  
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 24, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. General Klotz, the B61-12 and W76-1 life extension 
programs are both well underway at this point. Please give us a status 
update on these programs. Are you confident they will finish on time 
and on budget?
    General Klotz. The B61-12 is in Phase 6.3 (Development 
Engineering). The B61-12 Life Extension Program (LEP) completed more 
than 20 B61-12 LEP system-level joint, ground, and aircraft integration 
tests using functional developmental hardware. The first integration 
B61-12 LEP bomb assembly and tail kit assembly test was completed with 
aircraft platform interfaces, and the B61-12 will complete the first 
joint flight test in 2015. The primary future milestones will be to 
obtain Phase 6.4 (Production Engineering) approval in FY 2016; to 
obtain Phase 6.5 (First Production Unit) approval in FY 2019; and to 
complete the first production unit no later than March 2020. The B61-12 
LEP is on schedule and within budget for a first production unit in FY 
2020. The W76-1 is in Phase 6.6 (Full Scale Production). Last year, the 
W76-1 program achieved a major milestone by completing 50 percent of 
the planned warhead production. Our primary objectives in FY 2015, 
which are progressing as planned, are to: achieve annual refurbished 
warhead production rates; deliver refurbished warheads on schedule to 
the Navy for deployment; and produce and deliver joint test assemblies 
(JTA) for surveillance flight tests. In fact, NNSA has been successful 
in already completing half of the total planned warhead delivery 
quantities to the Navy for the year within the first third of the 
fiscal year. We are currently on schedule to complete the remaining FY 
2015 warhead production and deliveries to the Navy, which should be 
accomplished within our current funding allocations. If the requested 
funding is received, we are confident the program can remain on 
schedule for completion of production in FY 2019.
    Mr. Rogers. What are the major risks to these programs executing 
successfully? Are they technical? Or are they in getting the funding 
needed to execute?
    General Klotz. The major risks to successful execution of W76-1 LEP 
production and B61-12 LEP engineering development are a combination of 
technical and funding risks which adversely affect the execution of 
warhead production and delivery schedules. In addition, other risks of 
primary concern to the W76-1 LEP are single-point failures associated 
with aging infrastructure (facilities and production equipment) within 
the nuclear weapons complex. We continue to reduce these risks by 
replacing aging infrastructure and by maintaining margin to delivery 
requirements. Funding requested for these two programs in FY 2016 FYNSP 
continues their current progress.
    Mr. Rogers. General Klotz, are you confident the uranium facility 
in Tennessee and the plutonium facility in New Mexico will each be 
successfully built on the timelines and budgets NNSA has laid out in 
the FY16 budget request? Can you assure this committee that these 
critical facilities will be built on-time and on-schedule?
    General Klotz. NNSA is confident that we will successfully deliver 
CMRR and UPF after we complete our designs and establish performance 
baselines for these projects. Over the past four years, NNSA has 
focused on putting the right policies, principles, people, processes, 
procedures, and partnerships in place to implement the Office of 
Management and Budget's (OMB) Circular A-11 for Capital Acquisition 
Projects, Department of Energy Order 413.3B on project management and 
the Secretary's January 2015 enhanced project management policies. In 
2013, GAO narrowed the focus of its High Risk list for NNSA to 
contracts and projects with a Total Project Cost greater than $750 
million as a result of the improvements NNSA is making in its contract 
and project management. NNSA is confident that the same policies and 
processes are scalable to the Major System Acquisition projects, such 
as CMRR and UPF.
    On both projects, NNSA is in the process of developing a high 
quality credible estimates utilizing NNSA's policies and procedures and 
GAO's best practices. Once these complex first-of-a-kind nuclear 
projects achieve 90% design maturity, NNSA will establish cost and 
schedule baselines that we are confident we can achieve.
    Mr. Rogers. What are the major risks to successfully completing 
these projects?
    General Klotz. Major risks to completion are:
    <bullet>  Escalation on commodities and equipment procurements;
    <bullet>  Inability to attract and retain nuclear qualified workers 
at assumed labor rates with the possible resurgence of industrial and 
nuclear construction;
    <bullet>  Availability of vendors qualified to produce materials 
and equipment to meet current nuclear construction standards (NQA-1);
    <bullet>  Changes to project requirements, codes, and standards;
    <bullet>  Delays in authorizations to start construction activities 
consistent with the proposed execution approach.
    Mr. Rogers. What happens if NNSA does not successfully complete 
these projects on the timelines laid out? What risks to safety and to 
NNSA's mission does this incur?
    General Klotz. The UPF project in Tennessee is vital to 
modernization efforts at Y-12, allowing the NNSA to cease enriched 
uranium (EU) programmatic operations in Building 9212 no later than FY 
2025. The NNSA is committed to ceasing these operations and is 
executing a strategy to deliver the critical UPF project while making 
additional program investments at the Y-12 Plant. These additional 
program investments allow the most hazardous operations in Building 
9212 to be stopped prior to FY 2025, reducing the safety risks and 
program risks immediately upon doing so. Failure to deliver the UPF 
project by FY 2025 would result in a major delay in ceasing casting, 
special oxide production and salvage and accountability operations from 
Building 9212.
    The execution of Radiological Laboratory Utility Office Building 
(RLUOB) Equipment Installation Phase 2 (REI2) and PF-4 Equipment 
Installation (PEI) is critical to maintaining continuity in our 
analytical chemistry (AC) and materials characterization (MC) 
capabilities. Failure to complete these activities on the projected 
schedule may impact our ability to cease programmatic operations in the 
Chemistry and Metallurgy Research (CMR) facility in 2019, and would 
likely impact our ability to provide the AC and MC capabilities needed 
to support pit production and other plutonium activities at Los Alamos 
National Laboratory.
    Mr. Rogers. General Klotz, do you believe your Defense Nuclear 
Nonproliferation programs align with the highest nuclear risks around 
the world? How do you prioritize NNSA's nonproliferation funding and 
direct it to the highest priority risks? Do you rely on intelligence 
community assessments of those risks?
    General Klotz. Previously, each program office under the Defense 
Nuclear Nonproliferation (DNN) appropriation has applied rigorous 
internal risk assessment and prioritization approaches (including 
Intelligence Community assessments) to inform, develop, and provide the 
foundation for its fiscal year funding request. Although significant 
program-level coordination continues, the realignment of the Nuclear 
Counterterrorism and Incident Response (NCTIR) Program under the DNN 
appropriation, the reorganization of the Office of Defense Nuclear 
Nonproliferation, and the standup of NNSA's new Cost Estimating and 
Program Evaluation Office will now provide NNSA with a more integrated 
structure for program planning, budgeting, and evaluation as well as 
cross-program prioritization.
    NNSA participates in whole-of-government policy and program 
coordination processes to ensure that NNSA activities are aligned and 
integrated with broad U.S. national priorities and capabilities. NNSA, 
working particularly with the Departments of State and Defense, has 
been central to U.S. efforts to develop and implement domestic and 
international programs and strategies to meet the enduring and evolving 
challenges to the global nuclear security environment.
    Mr. Rogers. General Klotz, counterintelligence and cybersecurity 
threats to NNSA and its facilities are increasing in quantity and 
sophistication. Can you assure us NNSA can defend against all of these 
threats and prevent the escape of sensitive information?
    General Klotz. The current cyber defense model deployed by NNSA 
Headquarters, laboratories and plants has provided the necessary 
protection of NNSA information and information assets without any major 
compromises to date. However, it is important to note that with the 
increase in the number of threats and threat actors to the Nuclear 
Security Enterprise the current model will not remain effective or 
efficient without changes to the protection capabilities currently in 
place. These changes not only include replacement, upgrades, and/or 
enhancement to the technical infrastructure, but also an increase in 
the number, type, and skill level of the personnel required to protect 
these environments.
    We use a risk-based approach to evaluate tools/program/software/
hardware and their potential impact to our security environment. This 
security approach implements a defense-in-depth strategy to deter, 
detect, respond, and recover. These tools include firewalls, malware 
detection, intrusion prevention systems, and anti-virus systems on 
desktop workstations; custom tools and applications; and Commercial 
Off-the-Shelf (COTS) products within DOE/NNSA that were developed by 
the plants and labs across the Nuclear Security Enterprise (NSE). We 
constantly evaluate new tools that can enhance our current 
capabilities. The current threat environment requires our cyber 
defenses to be effective 100% of the time while our adversaries only 
have to succeed once to inflict major harm to our systems and networks. 
I am confident that our current cyber defense program is deterring the 
threats we face today, and we will implement the tools necessary to 
maintain security as threats evolve.
    Mr. Rogers. Are NNSA's management and operating contractors able to 
meet their requirements on cybersecurity and counterintelligence?
    General Klotz. Management and operating (M&O) contractors implement 
the current Risk Management Framework (RMF) approach. Implementation of 
the RMF is a signed agreement between the M&O Director and the NNSA 
Field Office Manager, regarding how the site will deploy cyber defenses 
to protect the information and information assets within the funding 
model for the site. Under the current Risk Management Framework, the 
security framework is signed off on by the federal site lead for 
cybersecurity. Once the federal lead has signed off on the framework 
the M&O has the authority to operate the system within the standards of 
the framework. If the M&O is required to implement a standard which is 
not within the current agreement, the M&O must go back to the federal 
lead for agreement before implementation of the new standard or 
requirement.
    Mr. Rogers. Please update us on the status of the Waste Isolation 
Pilot Plant in New Mexico subsequent to the events early last year that 
caused a radiation release and shutdown of the facility's underground 
operations. How long do you expect the shutdown to last?
    General Klotz and Mr. Whitney. The Department's target for initial 
resumption of waste emplacement at WIPP is the first quarter of 
calendar year 2016. The safety envelope for the facility continues to 
be analyzed and DOE will only resume operations when it is safe to do 
so.
    Mr. Rogers. How is the shutdown at WIPP sending ripple effects 
across the NNSA and DOE-EM complex?
    General Klotz and Mr. Whitney. The current plan for recovery of the 
WIPP is to begin initial disposal operation in 2016 and resume full 
operations in the 2018 timeframe, but DOE will only resume operations 
when it is safe to do so. Active transuranic (TRU) waste generators 
other than Los Alamos National Laboratory (Idaho, Oak Ridge and Argonne 
National Laboratory) are continuing characterization and certification 
activities and are providing interim storage of TRU waste for eventual 
shipment to the Waste Isolation Pilot Plant (WIPP). TRU waste generator 
sites have storage capacity for certified waste ready for WIPP disposal 
through at least fiscal year 2016.
    Mr. Rogers. How is NNSA holding the people and organizations 
responsible for this incident accountable?
    General Klotz and Mr. Whitney. As required, the Office of 
Environmental Management), NNSA, Carlsbad Field Office, Nuclear Waste 
Partnership, LLC (the WIPP management and operations contractor), and 
LANL will develop corrective actions to address the issues identified 
in the accident investigation report for the WIPP radiological event. 
Based on information identified to date, the following actions have 
been taken to ensure accountability for the event.
    <bullet>  Since the WIPP event, LANL has performed extensive 
scientific reviews, changed leadership in the Environmental Programs 
Directorate, completed an external root cause analysis and is currently 
performing an extent of condition review. LANL will evaluate its 
ongoing recovery efforts and will ensure corrective actions to address 
issues in the report are integrated with its overall recovery efforts.
    <bullet>  The November 14, 2014 EM Transition Plan documented a 
decision to remove EM-funded program work from the LANL contract and 
require future legacy environmental cleanup work at Los Alamos 
performed by a separately competed EM contract.
    <bullet>  The November 14, 2014 EM Transition Plan for Los Alamos 
also focuses on streamlining and clarifying roles and responsibilities 
between EM and NNSA. Consistent with this plan, the EM Los Alamos Field 
Office was stood up on March 22, 2014 to manage the EM-funded program 
work.
    <bullet>  Enhanced oversight by the Carlsbad Field Office and EM HQ 
will occur prior to the resumption of repackaging of TRU waste at LANL, 
and as the normal course of business at LANL and other sites in the 
future, e.g., the Certification Program will focus additional oversight 
efforts on understanding and validating upstream waste processing. 
Enhanced DOE Order 435.1, Radioactive Waste Management oversight is 
being planned.
    <bullet>  NNSA Los Alamos Field Office has hired or is in the 
process of hiring key staff positions to enhance its oversight 
capability. Such positions include the Senior Safety Technical Advisor 
(on board as of March 8, 2015), an Assistant Manager for Operations, a 
Deputy Assistant Manager for Operations, a temporary Deputy Manager 
with a strong safety background (on board in a few weeks), Safety Basis 
Specialists and Facility Representatives.
    <bullet>  NWP finalized its contractor recovery team in the spring 
of 2014, shortly after the event. Changes included a new Project 
Manager and Deputy Project Manager (who also serves as the Recovery 
Manager). Other new managers hired by NWP: Deputy Recovery Manager, 
Environmental Safety and Health manager, nuclear safety leader, 
maintenance manager, radiological manager, emergency manager, 
procedures and training manager, deputy operations manager, and deputy 
engineering manager.
    Mr. Rogers. General Klotz, what are your top priorities for Naval 
Reactors (NR) for FY16?
    General Klotz. All of Naval Reactors' budget supports the safe and 
effective operation of the nuclear-powered Fleet, today and tomorrow. 
Naval Reactors' funding requests can be directly linked to this single, 
over-arching priority of supporting the safe and effective operation of 
the nuclear-powered fleet. In FY16, this entails effective oversight of 
the operation and maintenance of 96 reactors in 71 submarines, 10 
aircraft carriers, and 4 training and research reactors. This priority 
will be met in the most effective and judicious way possible. The main 
components that support today's operating fleet are Naval Reactors 
Operations and Infrastructure (NOI), Naval Reactors Development (NRD), 
Program Direction and Construction. The remainder of the budget, 
primarily OHIO-Class Replacement Reactor Systems Development, S8G 
Prototype Refueling and the Spent Fuel Handling Recapitalization 
Project, supports tomorrow's fleet. In FY16, the OHIO-Class Replacement 
project will continue life of the ship reactor core manufacturing 
development activities and detailed design of reactor plant heavy 
equipment to support FY19 GFE procurement. The S8G Prototype Refueling 
will continue construction of the Radiological Work and Storage 
Building and preparations for the FY18 refueling. The Spent Fuel 
Handling Recapitalization Project will continue required development, 
fuel design, and will issue an Environmental Impact Statement.
    Mr. Rogers. Is NR's budget aligned with that of the larger Navy?
    General Klotz. Yes. We work closely every day with our partners in 
the Navy to ensure that we are aligned with the mission, performance 
requirements and schedules.
    Mr. Rogers. What happens if this program gets out of alignment with 
Navy programs like the OHIO-class Replacement program?
    General Klotz. Naval Reactors' Department of Energy and Navy 
efforts are directed at supporting this schedule, including development 
of the propulsion plant design to support procurement of long-lead 
components in FY19 to support a construction start in FY21 and ship 
delivery in FY28. After completing ship operational testing, the first 
OHIO-Class Replacement must be on strategic patrol by 2031 to meet 
STRATCOM force level requirements. Given that the first OHIO-Class 
Replacement submarine, a ship twice the size of the VIRGINIA-Class 
submarine, is planned to be constructed within the same span of time; 
this schedule is aggressive and requires close coupling of Department 
of Energy and Department of Navy activities to ensure on time ship 
delivery. The design and construction of OHIO-Class Replacement is a 
complex effort that requires extensive coordination between not only 
Naval Reactors and the Navy's Shipbuilders, but also the Navy's 
Strategic Systems Programs that are responsible for the missile systems 
and the British Navy, who will use the Common Missile Compartment 
design in their upcoming SSBNs. Because they each depend so heavily on 
each other, these four design efforts must be synchronized, in close 
collaboration to retire risk early and minimize estimated construction 
costs.
    Given the criticality of Naval Reactors' Department of Energy 
activities to Navy priorities and mission, funding cuts to Naval 
Reactors' DOE budget can adversely impact strategic objectives and 
plans, especially ship design and construction and nuclear operator 
training.
    Mr. Rogers. What has been the effect of the budget cuts Naval 
Reactors has received over the past four or five years?
    General Klotz. Over the past six years, Congress reduced Naval 
Reactors' funding by more than $600M below the Budget requests. These 
reduced funding levels have substantially impacted plans to 
recapitalize the spent fuel handling infrastructure, advanced 
technology development, and maintenance on prototype reactors, 
facilities and infrastructure. These functional areas are foundational 
to the Program and support Naval Reactors' ability to sustain the 
current nuclear-powered fleet and develop the future fleet. The 
following are specific examples of these impacts:
    <bullet>  Recapitalization of the naval nuclear spent fuel handling 
capability has been delayed by over five years. This delay has 
increased the project cost by more than $400M. As well, to manage the 
delay without affecting aircraft carrier schedules, the Navy will have 
to procure additional, otherwise unnecessary spent fuel shipping 
containers at a cost of approximately $500M. Because of the aging 
condition of the current facility, these delays also increase the risk 
that the current capabilities fail and we are unable to support the 
Navy's refueling schedule or conduct the research required to resolve 
important technical issues in the operating fleet. Therefore, 
additional investment has been required to maintain these aging 
facilities.
    <bullet>  Advanced technology development has been drastically 
reduced. Today, it is possible to design a life-of-ship core for the 
OHIO-Class Replacement, saving the Nation over $40B, because of 
technology development efforts conducted over the last four decades. 
Other leaps in stealth and operational technologies give our ships an 
enormous advantage over our adversaries. With current funding levels, 
there will be insufficient reactor technology developed in time for use 
in the next classification of nuclear powered ships to make advances 
such as this achieved for the OHIO-Class Replacement. Therefore, this 
work must be restored in order to maintain tactical superiority over 
our adversaries of the future and to attract and maintain the crucial 
engineering and scientific talent needed to successfully complete the 
mission at current levels.
    <bullet>  Maintenance and replacement of the Program's aging 
laboratory facilities and infrastructure has been delayed. Many of 
these facilities date from the dawn of the atomic age and are vital to 
support the nuclear-powered Fleet. In total, over 40 General Plant 
Projects and 4 Major Construction Projects have been delayed or 
canceled. In addition, funding reductions have resulted in the deferral 
of critical infrastructure maintenance resulting in significant 
failures and restriction of Naval Reactors' ability to manage the 
impact of emergent work as the existing infrastructure continues to 
age. Examples include:
        <bullet>  Bettis High Power Transformer (Failed in 2014)
        <bullet>  Bettis Acoustic Testing Generator (Failures over 2009 
        to 2011)
        <bullet>  NRF Storm Drain System (Failed in 2014)
        <bullet>  NRF Prototype Facilities (Roof failed in 2014)
        <bullet>  KAPL Water Main (Repeated Failures since 2004, 
        approx. 3-4 per year)
        <bullet>  Bettis Spring Water Intercept System (Failed in 2011 
        and 2013)
        <bullet>  Bettis Materials Evaluation Laboratory (Legacy 
        Radioactive Contamination)
    Mr. Rogers. General Klotz, what happens to NNSA's programs if you 
are hit with sequestration in FY16? Will you still be able to deliver 
on DOD's top priorities, including life extension programs, nuclear 
infrastructure modernization, and Naval Reactors programs?
    General Klotz. The 2016 Budget proposes to reverse sequestration, 
paid for with a balanced mix of commonsense spending cuts and tax 
loophole closers, while also proposing additional deficit reduction 
that would put debt on a downward path as a share of the economy. The 
President has made clear that he will not accept a budget that reverses 
our progress by locking in sequestration going forward. Locking in 
sequestration would bring real defense and non-defense funding to the 
lowest levels in a decade. It would damage our national security, 
ultimately resulting in a military that is too small and equipment that 
is too old to fully implement the defense strategy. It would also 
damage our economy, preventing us from making pro-growth investments. 
As the President has stated, he will not accept a budget that severs 
the vital link between our national and economic security, both of 
which are important to the Nation's safety, international standing, and 
long-term prosperity.
    Mr. Rogers. In FY13, DOD was given the chance to protect certain 
programs from sequestration. It chose to protect ongoing operations in 
Central Command and sustainment and operation of U.S. nuclear forces. 
Given a choice under a potential sequestration in FY16, as 
Administrator what NNSA programs would you choose to protect?
    General Klotz. The 2016 Budget proposes to reverse sequestration, 
paid for with a balanced mix of commonsense spending cuts and tax 
loophole closers, while also proposing additional deficit reduction 
that would put debt on a downward path as a share of the economy. The 
President has made clear that he will not accept a budget that reverses 
our progress by locking in sequestration going forward. Locking in 
sequestration would bring real defense and non-defense funding to the 
lowest levels in a decade. It would damage our national security, 
ultimately resulting in a military that is too small and equipment that 
is too old to fully implement the defense strategy. It would also 
damage our economy, preventing us from making pro-growth investments. 
As the President has stated, he will not accept a budget that severs 
the vital link between our national and economic security, both of 
which are important to the Nation's safety, international standing, and 
long-term prosperity.
    Mr. Rogers. General Klotz, this committee has focused on ensuring 
we get maximum value for every dollar. We've included language in 
several previous NDAA's encouraging NNSA to go find efficiencies and 
cost savings that we can apply directly to NNSA's mission. 
Specifically, what efficiencies are you striving for in FY15? What 
efficiencies are you proposing to chase in your FY16 budget request?
    General Klotz. NNSA is continuously looking for ways to improve use 
of resources to support its missions. During the past few years, NNSA 
worked with DOE to streamline DOE orders and directives to eliminate 
duplication, incentivize cost savings in management and operating 
contracts, make use of contract vehicles that appropriately share cost 
risk between the government and the contractor, and encourage NNSA 
plants and laboratories to more efficiently use resources.
    Together, NNSA and its NNSA's M&O contractors are committed to 
making the National Nuclear Security Enterprise a model for efficient 
business operations. Large scale efforts undertaken by NNSA recently to 
drive down operating costs include the relocation of the Kansas City 
Plant to a more modern facility, the competition of the Pantex and Y-12 
plants as a combined contract, and more efficient approaches to 
replacement of aging uranium and plutonium facilities. The award of the 
combined Pantex and Y-12 plants resulted in immediate cost savings that 
will continue to save in fiscal year (FY) 2015 and beyond. For example, 
the government realized an immediate savings of roughly $80 million in 
decreased award fee; money that was redirected to national security 
missions. Efficient business operations across the enterprise are 
critical to achieving the NNSA mission.
    On November 20, 2014, NNSA initiated an annual efficiencies review 
as an internal tool to drive continuous improvement in managing 
infrastructure. NNSA laboratories, plants, and federal Field Office 
Managers were directed to identify specific plans to pursue 
efficiencies for the current fiscal year and record achievements from 
the previous one. NNSA also sought input on oversight and governance 
changes that could enhance productivity.
    NNSA laboratories, plants, and federal Field Office Managers are in 
the process of sharing efficiency ideas from this effort and addressing 
suggestions from the labs and plants on changes NNSA can make to 
further efficiencies. NNSA also sponsored a day-long workshop with all 
of the NNSA labs, plants, and field offices at the end of May. The 
group will establish a framework of common definitions and best 
practices to enable an enterprise-wide approach which can be repeated 
year to year. NNSA is committed to continuous improvement and driving 
more efficient operations. The identified efficiencies for FY 2014 
covered a broad range of business operations. These included reducing 
the costs of goods and services, making major mission operations such 
as those at the National Ignition Facility more efficient, better 
managing the growing costs of employee benefit programs, and reducing 
key subcontracting costs. Efficiencies of this type will be critical to 
meeting FY 2016 mission.
    Finally, the FY 2014 budget request identified $320 million in 
efficiencies that would be obtained in executing the FY 2014 budget, 
and Section 3114 of the FY 2014 NDAA directed the identification of 
about half, or $139.5 million, in efficiencies during FY 2014. As 
reported in its May 214 Notification of NNSA Efficiencies, NNSA 
identified $80 million of these efficiencies.
    Mr. Rogers. General Klotz, one of the big recommendations coming 
out of the Y-12 security incident in 2012 was that roles and 
responsibilities for security were not clear at NNSA or its 
contractors. What specific action have you taken since taking the helm 
a year ago to clarify roles, responsibilities, authority, and 
accountability for each person at NNSA? Have you updated any NNSA 
directives? Spelled them out in policy guidance?
    General Klotz. Prior to my appointment, my predecessor issued a 
memorandum (dated 5 December, 2014) which made fundamental changes to 
the Office of the Associate Administrator for Defense Nuclear Security/
Chief, Defense Nuclear Security (NA-70), by moving and consolidating 
the lines of operational authority, accountability, and line 
management. That reorganization transferred to NA-70 the mission and 
functions of security operations from NA-00-30 as well as the budget 
activity from NA-00-50 (within the Office of the Associate 
Administrator for Infrastructure and Operations). We are currently in 
the process of publishing a supplemental directive that will further 
delineate responsibilities for oversight of our security programs.
    During my first year as NNSA Administrator, I have made it my 
priority to select and staff key senior leadership positions with 
seasoned leaders, possessing extensive nuclear security experience. 
I've firmed up our Office of Defense Nuclear Security senior leadership 
by hiring career security managers, with a proven track record in 
leading organizations to success, for the following positions: Chief of 
Defense Nuclear Security (CDNS), Deputy CDNS and Director of Security 
Operations and Programmatic Planning.
    This full complement of Senior Executive Service managers provides 
much needed continuity and stability to our Enterprise Field Offices in 
the area of security. The addition of my Principal Deputy Administrator 
in July 2014, is also having a positive impact on security decisions as 
we move forward.
    A new M&O contractor has been selected since the 2012 Y-12 security 
incident. Consolidated Nuclear Security (CNS) began operating our 
Pantex and Y-12 sites on 1 July 2014. They are bringing a fresh 
perspective to site operations, which include all aspects of security 
operations. It also places all security operations are under one 
contract. That was not the case in 2012 when the incident occurred. 
Shortly after CNS began operations, the DOE Office of Enterprise 
Assessments conducted an assessment at Y-12. The report regarding the 
inspection, conducted in August of 2014, states: ``significant progress 
has been made in correcting many of the deficiencies identified during 
the 2012 inspection.''
    Based on the inspection results, the DOE Departmental Internal 
Control and Audit Review Council, comprised of senior members of DOE 
leadership, recommended downgrading the Y-12 security issue from a 
material weakness to a reportable condition. The CDNS will continue to 
monitor the implementation of corrective actions at the site until they 
are closed.
    Lastly, our Federal team has taken a more direct and active role in 
contractor oversight. Several teams comprised of subject matter experts 
from our Headquarters and across NNSA have provided assessments of Y-12 
security operations. Examples include one team focused on nuisance and 
false alarm analysis and a team that recently assessed physical 
security system maintenance, operations and management. These 
assessments resulted in recommendations focused on continuously 
improving operations at Y-12.
    Mr. Rogers. General Klotz, DNFSB sent you a recommendation on 
concerns with DOE/NNSA's emergency management and response. What is 
your organization doing to improve in this area?
    General Klotz. The Department of Energy (DOE) is committed to 
achieving an end state of an improved Emergency Management Enterprise, 
and more specifically, improving emergency preparedness and emergency 
response capabilities across its defense nuclear facilities. DOE/NNSA 
will implement actions to prioritize improvements related to the DNFSB 
report findings and DOE's self-assessed need for improvements. The 
Department has developed an Implementation Plan containing initiatives 
that address all three aspects of Readiness Assurance at defense 
nuclear facilities: improve the management and oversight process, 
improve the corrective actions process, and reinvigorate a reporting 
process that shares successes and opportunities with DOE leadership. In 
addition, the Department will revise and restructure its Emergency 
Management Order, DOE Order 151.1C, Comprehensive Emergency Management 
System. The restructured Order will bring ease of application and 
consistency to emergency management programs. It will also be flexible 
enough to provide comprehensive guidance for users to respond to 
incidents ranging from local, single facility events, to multiple 
facility regional events.
    In addition to developing the Implementation Plan, DOE/NNSA has 
been working to improve emergency management. This included required 
evaluation reviews of emergency response for severe accidents and/or 
events that could have widespread impact at all DOE facilities, 
including defense nuclear facilities. These reviews have resulted in 
activities to expand plans for severe event scenarios at defense 
nuclear facilities. Also, additional training for responders was 
conducted at many of the defense nuclear facilities and a series of 
discussion-based tabletop exercises was performed to verify severe 
event procedures, interfaces and resources for multi-facility events, 
offsite asset resources and priorities, and critical decision-making. 
This training was followed by full-scale exercises at ten defense 
nuclear facilities, to formally test their capabilities for responding 
to severe events.
    Other examples of emergency management program improvements across 
the defense nuclear complex included:
    Severe event related improvements
    <bullet>  Sandia--Conducted a Self-Assessment of Severe Natural 
Phenomena Events (NPE) that identified issues related to habitability 
and back-up power; corrective actions were developed and are being 
implemented and tracked.
    <bullet>  Livermore--Improved the habitability of the site's 
Emergency Operations Center (EOC) with the replacement of four high-
efficiency gas absorption (HEGA) filters.
    <bullet>  Livermore--Established a Lawrence Livermore National 
Laboratory (LLNL) Community Emergency Response Team (CERT) program to 
support its Emergency Response Organization (ERO) and the site 
population after a disaster/severe event.
    <bullet>  Nevada--Implemented fully functional primary and 
alternate facilities for both the Operations Command Center and the 
Emergency Operations Center.
    <bullet>  Idaho--Conducted a severe Natural Phenomena Event (NPE) 
exercise that identified issues related to habitability and back-up 
power; corrective actions were developed and are being implemented and 
monitored.
    Training and drill improvements
    <bullet>  Sandia--Revised training procedures to include annual 
performance testing to demonstrate competency. Conducted self-
assessment and identified an issue in training record documentation.
    <bullet>  Nevada--Drill and Exercise Program is integrated with the 
issues management processes and incorporates exercise After Action 
Report findings into an issue, which is assigned to a Responsible 
Manager.
    Exercise improvements
    <bullet>  Sandia--Severe event exercise scheduled for July 2015 to 
verify corrective actions implemented from FY 2014 Severe Event 
Exercise are effective.
    <bullet>  Livermore--Conducted four exercises in FY 2014 in 
response to a NPE (e.g., earthquake) to demonstrate ability to respond 
to simultaneous events at multiple hazardous facilities.
    <bullet>  SRS--SRNS-Tritium facility developed and conducted a 
tornado drill with all of the shifts affecting multiple facilities and 
all non-essential personnel.
    <bullet>  West Valley Demonstration Project--Conducted an exercise 
to test and validate the effectiveness of the Emergency Response 
Organization, Technical Support Center, Incident Command, Joint 
Information Center and field support.
    Readiness assurance improvements
    <bullet>  Sandia--Conducted Self-Assessments to identify issues 
with Corrective Action implementation.
    <bullet>  Livermore--Established an Accountability Disaster Call 
Center to improve communications with the field during a major 
earthquake or other disaster event and to provide prioritized damage 
assessment information to the Fire Branch Disaster Dispatch Center.
    <bullet>  Savannah River Site--DOE issued a formal letter to SRNS 
directing a comprehensive, independent review of all of the emergency 
management elements to address concern about a decline in the emergency 
management program.
    <bullet>  Nevada--Emergency Management program has qualified and 
experienced staff in developing/facilitating Root Cause Analysis to 
address the root issue and the extent of condition.
    <bullet>  Emergency Operations is developing a process to track 
findings/deficiencies identified during site assessments. Each finding 
will have a Corrective Action Plan (CAP) and will be tracked to 
closure. Over time, the CAPs will produce trending data that will 
indicate where the Office of Environmental Management should shift the 
focus of site assessments and surveys. EM will periodically re-examine 
the effectiveness of closed CAPs after implementation of the corrective 
action(s).
    <bullet>  Sandia--Identified an issue that resources are not 
adequate to implement an effective readiness assurance program, then 
submitted and received approval for a Full Time Equivalent (FTE)/
Funding request for a Program Administration Team Lead.
    DOE Headquarters undertook several initiatives over the past year 
to address emergency management issues across its full range of 
responsibilities, which also enhance our capabilities to respond to 
emergencies at defense nuclear facilities.
    DOE established an Energy Incident Management Council (EIMC), 
chaired by the Deputy Secretary, to increase cooperation and 
coordination across the Department to prepare for, mitigate, respond 
to, and recover from emergencies. DOE's ongoing project to revitalize 
the Headquarters Emergency Management Team (EMT includes rewriting the 
HQ Emergency Plan and implementing procedures; conducting job task 
analyses and developing position specific training for EMT members; and 
retraining EMT members on these new procedures. Plans for testing this 
expanded capability include frequent testing of the EMT in response to 
a variety of emergency response scenarios such as:
    <bullet>  nuclear weapons accident,
    <bullet>  radiological release,
    <bullet>  hazardous chemical spill, and
    <bullet>  severe event damage to DOE defense nuclear facilities.
    DOE's working relationship with its Federal interagency partners 
was improved during 2014 through a series of exercises, most notably 
the annual multi-agency nuclear weapons accident exercise, 2014 NUWAIX, 
for which DOE was the lead planning agency.
    Mr. Rogers. General Klotz, I and several members of this 
subcommittee joined you and Admiral Richardson on a trip to the Naval 
Reactors Facility in Idaho last month. What goes on at this facility 
and why does the budget request include funding for recapitalization of 
the Spent Fuel Handling facility out there?
    General Klotz. The Expended Core Facility (ECF) at the Naval 
Reactors Facility in Idaho is the only facility in the country capable 
of receiving, examining and packaging spent Naval nuclear fuel.
    The budget request includes funding the Spent Fuel Handling 
Recapitalization Project (SFHP) at the Naval Reactors Facility which 
will provide a new facility to replace the more than 55-year old ECF 
for receipt, preparation, and packaging of naval spent nuclear fuel for 
secure dry storage. Although the Expended Core Facility continues to be 
maintained and operated in a safe and environmentally responsible 
manner, it no longer efficiently supports the nuclear fleet. Further, 
increasing sustainment efforts and required infrastructure upgrades 
pose a substantial risk to Expended Core Facility operations and 
production workflow, thereby challenging Naval Reactors' ability to 
support the Navy's nuclear-powered fleet refueling and defueling 
schedules. An interruption to these refueling and defueling schedules 
would adversely affect the operational availability of the nuclear 
fleet. If this interruption were to extend over long periods, the 
ability to sustain fleet operations would be impacted, ultimately 
resulting in significant decrement to the Navy's responsiveness and 
agility to fulfill military missions worldwide.
    Mr. Rogers. Absent this funding, will costs increase in the long-
term for either NNSA or the Navy?
    General Klotz. The main risk of further cost increases to the Spent 
Fuel Handling Recapitalization Project is a lack of funding stability. 
One could expect cost increases if the project is not funded 
sufficiently to meet the current schedule. Further delays to the 
project would also incur costs for additional spent fuel shipping 
containers that would be borne by the Navy.
    The original Spent Fuel Handling Recapitalization Project plan 
included a project duration of 10 years and a total project cost 
estimate of $1.249B. Due to funding restrictions since FY12, the 
project has been extended nearly six years, resulting in a project cost 
increase of approximately $400M. The increased cost resulted from 
escalation due to these delays and inefficiencies and rework associated 
with the unstable funding environment, which has required de-staffing 
and re-staffing of the project multiple times. Further, the estimated 
total project cost of the Spent Fuel Handling Recapitalization Project 
does not account for the additional M-290 shipping containers that the 
Navy will need to procure for temporary storage of naval spent nuclear 
fuel until the new spent fuel handling facility becomes operational. 
Procurement of these additional shipping containers is only necessary 
because the project has been delayed, as discussed above. To support 
aircraft carrier refueling schedules, the Navy will need to procure 
these containers at a total cost of approximately $500M.
    Mr. Rogers. General Klotz, how is NNSA supporting next year's 
Nuclear Security Summit in Chicago? What initiatives are being proposed 
for discussion at the Summit and what is NNSA doing to advance them?
    General Klotz. NNSA is carrying out activities across many of its 
program areas in support of the Nuclear Security Summit (NSS) process. 
NNSA has designated a Senior Coordinator who acts as a liaison for the 
Department of Energy (DOE) to the White House on all Summit issues. The 
coordinator facilitates DOE input to the NSS planning process, 
including in drafting NSS Action Plans to sustain the work of Summit 
participants through institutions and initiatives like the 
International Atomic Energy Agency, United Nations, Interpol, the 
Global Initiative to Combat Nuclear Terrorism, and the G7 Global 
Partnership.
    In advance of the 2016 NSS, NNSA also plays a leading role in the 
development of a range of specific country and regional plans. These 
action plans will propose how to accelerate the completion of existing 
Summit deliverables and on how to identify specific opportunities for 
new Summit deliverables, including actions we can take bi- or 
multilaterally to secure, reduce and eliminate nuclear and radiological 
materials. NNSA will continue to implement and complete commitments 
from the 2010, 2012, and 2014 Summits, including minimizing highly 
enriched uranium and plutonium, detecting nuclear smuggling, 
strengthening strategic trade controls, and increasing security of 
nuclear and radiological materials.
    Mr. Rogers. General Klotz, please provide us a description of 
accountability actions taken towards contractors and Federal employees 
with responsibility for major recent failures, such as the UPF design, 
the WIPP event, and the Y-12 security incident. How were they 
penalized? Were any terminated from employment? Did any of these 
contractors or Federal employees receive bonuses subsequent to those 
failures?
    General Klotz. [NNSA has declined to provide a written response.]
    Mr. Rogers. General Klotz, Naval Reactors has taken significant 
funding reductions to its technical base in recent years. What is the 
technical base, why is it important, and what are the impacts of cuts 
to NR's base operations?
    General Klotz. The Base solely supports Naval Reactors' 
responsibilities that allows for a safe and reliable operation of the 
nuclear fleet. It contains Naval Reactors Operations and Infrastructure 
(NOI), Naval Reactors Development (NRD), and Program Direction (PD). It 
includes resources to meet the goals and operational demands of today's 
fleet, to develop tomorrow's fleet, to support environmental 
stewardship, and to procure and construct the required tools and 
infrastructure that facilitate Naval Reactors' mission. Naval Reactors 
executes these responsibilities by management and regulation of an 
enterprise that includes over 7,000 highly-skilled personnel at 
Department of Energy laboratories and prime contractors, a specialized 
domestic nuclear power industrial base of 28 principal suppliers, 110 
secondary suppliers with about 25,000 personnel, more than 64,000 
workers at the nation's six nuclear-capable shipyards, and over 16,000 
trained nuclear operators. This team collaborates with experts at other 
DOE National laboratories where there are opportunities for mutual 
gain. No other single organization in the U.S. currently integrates the 
research, design, construction, operation, life-cycle support, and 
disposal functions to successfully deliver an enduring nuclear power 
capability.
    The highest priority for Naval Reactors is uncompromising and 
timely support for safe nuclear fleet operation. In FY 2016, $935 
million funds the Base and supports the 96 operating reactors at sea on 
ships and at our training and research sites. The talented men and 
women, along with the equipment and facilities upon which they depend, 
stand ready and are called upon 24 hours per day, 365 days per year to 
advance the mission and respond to emergent fleet needs for assistance. 
The teams at Naval Reactors' four Program sites--the Bettis Laboratory 
in Pittsburgh, the Knolls Laboratory and Kesselring Site in greater 
Albany, and our spent nuclear fuel facilities in Idaho--perform the 
research and development, analysis, engineering and testing needed to 
support today's fleet and to develop future nuclear-powered warships. 
The teams in the Base provide tremendous value to the nation. Among the 
many examples of the work they do includes:
    <bullet>  Adding more than 21 years of operational life across 14 
LOS ANGELES-Class attack submarines.
    <bullet>  Avoiding 14 years of lost aircraft carrier operational 
time and ensuring no impact to the deployment plan.
    Over the past six years, Congress reduced Naval Reactors' funding 
by more than $600M. These reduced funding levels have substantially 
impacted plans to recapitalize the spent fuel handling infrastructure, 
advanced technology development, and maintenance on prototype reactors, 
facilities and infrastructure. These functional areas are foundational 
to the Program and support Naval Reactors' ability to sustain the 
current nuclear-powered fleet and develop the future fleet.
    Mr. Rogers. Mr. Whitney, please explain the Uranium Enrichment 
Decontamination and Decommissioning (D&D) Fund. Why is $472 million 
being requested for the Federal Government's portion of this fund when 
the reauthorization for collection of the nuclear power industry's 
portion has not been passed?
    Mr. Whitney. The Energy Policy Act of 1992 (EPAct) established the 
Uranium Enrichment (UE) D&D fund to provide resources for the cleanup 
activities. Under the EPAct, both the Government and domestic private 
utilities were required to contribute to the fund, with the Government 
providing roughly two thirds of the funding and the utilities providing 
the remaining one third.
    Both the Government and private utilities have completed their 
contributions into the fund as required by the EPAct. However, as of 
the end of fiscal year (FY) 2014, the total UE D&D cleanup costs are 
expected to exceed the balance of the fund by 2022 if no additional 
contributions are received. As such, the Administration is seeking 
reauthorization of both Government and utility contributions beginning 
in FY 2016.
    Mr. Rogers. Mr. Whitney, is EM on track to meet its regulatory and 
compliance agreements for FY15? What about for FY16 and beyond?
    Mr. Whitney. We are on track to meet our FY15 and FY16 milestone 
commitments. Beyond FY16, the Department's ability to fulfill its 
milestone requirements is difficult to forecast as it is dependent upon 
the completion of pre-cursor activities and the assumptions upon which 
work plans are based.
    To the extent milestones are delayed, DOE will follow the 
provisions in its cleanup agreements for making notifications and 
working with federal and State regulators regarding schedule 
adjustments if necessary.
    Mr. Rogers. Ms. Roberson, DNFSB sent a letter to DOE last year 
recommending improvements to DOE's emergency response programs. What 
are the specific concerns you outlined in that recommendation? What 
specific steps would DNFSB like to see taken by DOE to improve in this 
area?
    Ms. Roberson. 1) The DNFSB (Defense Nuclear Facilities Safety 
Board) identified concerns with specific requirements in the Department 
of Energy's (DOE) emergency management directive as well as the 
implementation of the requirements at various DOE sites with defense 
nuclear facilities. Based on these concerns, the DNFSB believes that 
DOE has not comprehensively and consistently demonstrated its ability 
to adequately protect workers and the public in the event of an 
emergency. These concerns focus on DOE's role as a regulator.
    2) The DNFSB identified the following specific deficiencies that we 
believe DOE needs to address:
    a. Standardize and improve the DOE criteria and review approach to 
confirm that all sites with defense nuclear facilities:
    <bullet>  Have a robust emergency response infrastructure that is 
survivable, habitable, and maintained to function during emergencies, 
including severe events that can impact multiple facilities and 
potentially overwhelm emergency response resources.
    <bullet>  Have a training and drill program that ensures that 
emergency response personnel are fully competent in accordance with the 
expectations delineated in DOE's directive and associated guidance.
    <bullet>  Are conducting exercises that fully demonstrate their 
emergency response is capable of responding to scenarios that challenge 
existing capability, including response during severe events.
    <bullet>  Are identifying deficiencies with emergency preparedness 
and response, conducting causal analysis, developing and implementing 
effective corrective actions to address these deficiencies, and 
evaluating the effectiveness of the corrective actions.
    <bullet>  Have an effective Readiness Assurance Program consistent 
with DOE's requirements.
    b. Update its emergency management directive (DOE Order 151.1C, 
Comprehensive Emergency Management System) to address:
    <bullet>  Severe events, including requirements that address 
hazards assessments and exercises, and ``beyond design basis'' 
operational and natural phenomena events.
    <bullet>  Reliability and habitability of emergency response 
facilities and support equipment.
    <bullet>  Criteria for training and drills, including requirements 
that address facility conduct of operations drill programs and the 
interface with emergency response organization team drills.
    <bullet>  Criteria for exercises to ensure that they are an 
adequate demonstration of proficiency.
    <bullet>  Vulnerabilities identified during independent 
assessments.
    We received DOE's Implementation Plan for this Recommendation on 
April 24, 2015. Our staff is reviewing the Implementation Plan to 
determine the adequacy of DOE's proposed activities to address the 
deficiencies identified in the Recommendation. The staff was engaged 
with their DOE counterparts during the development of the plan and 
provided comments. During the execution of the Implementation Plan, the 
Board's staff will work closely with DOE to provide appropriate 
actionable suggestions regarding implementation of activities in the 
plan.
    The technical supporting document for Recommendation 2014-1 
identified examples of deficiencies with site-level emergency 
preparedness and response. These include:
    ``Some sites do not have a 5-year plan for exercises that involves 
all of the hazards and accidents at their facilities with EPHAs 
[Emergency Planning Hazards Assessment]. In addition, some sites do not 
exercise all of their facilities with EPHAs and all of their response 
elements on an annual basis.'' DOE Order 151.1C requires sites to 
demonstrate response capabilities by executing emergency exercises. In 
order to meet this requirement, sites such as Pantex and Sandia 
National Laboratories should be executing a variety of exercises to 
demonstrate response capability to the spectrum of possible hazards at 
each facility, as well as providing adequate training and drills to 
develop and maintain this capability.
    ``Planning and implementing recovery actions are typically not 
demonstrated in detail during the normal scope of annual emergency 
exercises at DOE sites [such as the Savannah River Site and the Waste 
Isolation Pilot Plant], or in follow-on exercises.'' DOE Order 151.1C 
also requires sites to demonstrate recovery capability. The ability to 
conduct initial recovery actions, including how to map a transition 
from emergency to recovery to normal operations, should be practiced 
frequently enough that site leadership can effectively conduct this 
activity when real-life operational emergencies occur.
    ``. . . [M]any of the emergency response facilities may not be 
habitable in the aftermath of a hazardous or radiological material 
release event, or survivable in the aftermath of a severe natural 
phenomena event. These facilities were not designed to survive an 
earthquake, and many do not have ventilation systems that will filter 
radiological and toxicological materials. Examples of such facilities 
include the Emergency Control Center (ECC), the Technical Support 
Center (TSC), and the fire house at Y-12; the EOC [Emergency Operations 
Center] at the Hanford Site; the EOC and alternate EOC, the Department 
Operations Centers, and the Emergency Communications Center at LLNL 
[Lawrence Livermore National Laboratory]; and the EOC and Central 
Monitoring Room at WIPP [Waste Isolation Pilot Plant].'' DOE Order 
151.1C does not include explicit requirements concerning emergency 
facility habitability; other agencies, such as the Nuclear Regulatory 
Commission, do provide such requirements. The DNFSB Recommendation 
identifies the need to update the directive to address this gap. 
``Members of the Board's staff also observed problems with systems used 
to support emergency communications and notifications. For example, the 
staff observed problems with the systems used to notify workers and 
visitors about an emergency and protective actions that are to be 
taken, such as was observed recently at WIPP during the underground 
truck fire.'' DOE Order 151.1C provides requirements for emergency 
notification systems at DOE sites, including notification to the site 
workers and off-site notification to the public. However, guidance to 
implement this requirement is deficient. Sites must develop clear 
criteria for when to continue operations when notification systems are 
degraded or failed, including compensatory measures that are tested and 
effective to ensure workers receive notification that an operational 
emergency is occurring and the necessary protective actions to take. 
Robust, survivable, and tested notification systems installed in and 
around facilities at sites such as the Waste Isolation Pilot Plant, the 
Savannah River Site, the Hanford Site, and Lawrence Livermore National 
Laboratory are a necessary first step to address this concern.
    Mr. Rogers. Ms. Roberson, is the DNFSB preparing an implementation 
plan to address the recommendations and corrective actions within the 
LMI study on DNFSB's workforce and culture? When will this plan be 
complete?
    Ms. Roberson. The DNFSB has prepared an informal action plan to 
address the recommendations and corrective actions within the LMI 
study. For example, all DNFSB executives and Board Members are working 
with an executive coach to develop better communication techniques and 
enhance leadership effectiveness. Regular staff meetings are being held 
at both the agency and office level to provide increased opportunities 
for employee feedback and participation. The full action plan for 
organizational culture change is attached.
    [The information referred to can be found in the Appendix on page 
69.]
    In addition, the Nuclear Regulatory Commission Office of the 
Inspector General (OIG) recently completed a Culture Climate Survey of 
the DNFSB staff. The response rate exceeded 70%, and the OIG will be 
briefing the results to the DNFSB management and staff on May 21st. I 
anticipate additional actions will be planned as a result of that 
additional feedback.
    Mr. Rogers. Ms. Roberson, does DNFSB intend to review NNSA's large 
list of deferred maintenance projects for safety risks? Would DNFSB be 
willing to provide NNSA its views on prioritizing this list with 
regards to safety risk?
    Ms. Roberson. The DNFSB has evaluated deferred maintenance 
documentation and databases during site-specific maintenance reviews 
and generally found the management of safety risk to be acceptable. 
(NNSA's list of deferred maintenance is housed in the Department of 
Energy's Facilities Information Management System [FIMS].) The majority 
of the deferred maintenance had a relatively low impact on nuclear 
safety and was being worked as resource availability permitted. The 
management and operating contractors at each site commonly make it a 
high priority to minimize deferred preventive maintenance of safety 
class and safety significant structures, systems, and components (SSC) 
that are credited to perform safety-related functions in the Documented 
Safety Analyses for nuclear facilities. The DNFSB will continue to 
review maintenance programs at NNSA sites, including assessments of 
deferred maintenance, to ensure SSCs critical to preserving the safety 
of nuclear operations are appropriately managed.
    It should be noted, however, that the overall NNSA deferred 
maintenance backlog of $3.6B includes many non-defense nuclear 
facilities and associated infrastructure exceeding 60 years of service 
that have little or no bearing on the safety of nuclear operations. 
Many of the items in NNSA's deferred maintenance database are roofs, 
office air conditioning systems, shop utilities, and the like. At some 
sites these types of deferred maintenance vastly surpass corrective 
maintenance backlogs or deferred preventive maintenance on nuclear 
safety-related SSCs and processing equipment. Nevertheless, 
infrastructure risk in a non-defense nuclear facility can pose a 
nuclear safety risk under the right circumstances. For example, a major 
fire in a non-defense nuclear facility could threaten a nearby defense 
nuclear facility. In such a case, we would expect the credited fire 
suppression systems in the defense nuclear facility to provide for the 
adequate protection of the public and workers from radiological 
consequences. Clearly, though, it would be preferable to avoid a major 
fire in the first place.
    To help prevent degradation of the nuclear facility safety posture, 
equipment owners or system engineers at the sites are typically 
expected to provide technical input during the decision process for 
deferring maintenance of safety SSCs. For example, if preventive 
maintenance activities for safety SSCs will exceed defined schedules, 
it is necessary to obtain a deferral evaluation and approval or make a 
determination of compensatory measures to be implemented.
    DOE Order 430.1B, Real Property Asset Management, requires DOE/NNSA 
sites to annually use condition assessment data to determine and report 
the deferred maintenance information in FIMS. The site contractor must 
maintain FIMS data and records, which are DOE's corporate real property 
inventory database for all buildings and other structures and 
facilities. Although, it is expected to be difficult to evaluate 
comparative risk among the NNSA sites, the DNFSB has requested FIMS 
database information relevant to deferred maintenance at defense 
nuclear facilities. In addition to reviewing the FIMS data in an 
attempt to identify any potential safety risks related to deferred 
maintenance, the DNFSB will continue to execute site-specific 
maintenance reviews. Any safety concerns related to the prioritization 
of deferred maintenance will be brought to the attention of responsible 
NNSA management.
    The Board's response to Question 21 [which follows] provides 
additional details on deferred maintenance.
    Mr. Rogers. Ms. Roberson, what are the safety impacts of NNSA's 
deteriorating infrastructure and $3.6 billion backlog of deferred 
maintenance? NNSA officials have said that ``infrastructure risk 
becomes safety risk.'' Do you agree? [Question #21, for cross-
reference.]
    Ms. Roberson. The DNFSB agrees that infrastructure risk can become 
safety risk. It should be noted, however, that the overall NNSA 
deferred maintenance backlog of $3.6B includes non-defense nuclear 
facilities and infrastructure that have little or no bearing on the 
safety of nuclear operations. Many of the items in NNSA's deferred 
maintenance database are roofs, office air conditioning systems, shop 
utilities, and the like. At some sites these types of deferred 
maintenance vastly exceed corrective maintenance backlogs or deferred 
preventive maintenance on nuclear safety-related structures, systems, 
and components (SSC) and processing equipment. Nevertheless, 
infrastructure risk in a non-defense nuclear facility can pose a 
nuclear safety risk under the right circumstances. For example, a major 
fire in a non-defense nuclear facility could threaten a nearby defense 
nuclear facility. In such a case, we would expect the credited fire 
suppression systems in the defense nuclear facility to provide for the 
adequate protection of the public and workers from radiological 
consequences. Clearly, though, it would be preferable to avoid a major 
fire in the first place.
    Safe performance of work includes allotting adequate resources to 
system and equipment maintenance, maintaining up-to-date configuration 
control, and making necessary upgrades to support system 
infrastructure. A lesson learned from the recent Waste Isolation Pilot 
Plant events is that degraded and out of service safety-related 
equipment must not be accepted and tolerated. Deficient and poorly 
maintained safety-related infrastructure, including credited safety 
SSCs that support nuclear activities, can pose safety risks to the 
public and workers, and can jeopardize NNSA's ability to accomplish 
mission-related work.
    Infrastructure is defined in DOE Order 430.1B, Real Property Asset 
Management, as ``All real property, installed equipment, and related 
real property that is not solely supporting a single program mission at 
a multi-program site or that is not programmatic real property at a 
single program site.'' DOE Order 430.1B defines deferred maintenance as 
``maintenance that was not performed when it should have been or was 
scheduled to be and which, therefore, is put off or delayed for a 
future period.'' Maintenance activities are expected to be scheduled 
and performed within established intervals; preventive maintenance 
should be waived or deferred only with approval by an appropriate 
authority that considers the significance of the SSC and the length of 
delay. Further, any deferral of planned tasks should have a technical 
basis.
    The number and severity of risks increases when the amount of 
deferred preventive maintenance and corrective maintenance backlog 
rises. Each nuclear facility has a Documented Safety Analysis (DSA) and 
accompanying Technical Safety Requirements which set forth the 
preventive maintenance and surveillance requirements for the safety 
class and safety significant SSCs credited by the DSA to prevent or 
mitigate hazardous accident scenarios. The implementation of these 
maintenance and surveillance requirements is key to ensuring the SSCs 
will reliably perform their credited safety functions on an on-going 
basis. As such, completion of the maintenance and surveillance 
requirements is carefully controlled or, if not achievable, 
compensatory measures are implemented or the associated operations are 
shut down until the required maintenance or surveillance is complete.
    Deferred maintenance associated with safety-related SSCs credited 
in DSAs is of paramount concern to the Board. Maintenance on other 
safety-related programmatic and infrastructure equipment is also 
important to maintaining the safety envelope of defense nuclear 
facilities. Preventive and corrective maintenance should only be 
deferred if sufficient technical justification exists to do so.
    The DNFSB has identified preventive maintenance deferrals at NNSA/
DOE sites whose justifications were less than adequate. For example, 
preventive maintenance has been deferred because parts were not 
ordered, or because materials or craft resources to support the work 
were not available. Similarly, the DNFSB has seen cases where 
preventive maintenance schedules were modified based on business 
decisions. The maintenance deferral process must ensure adequate 
reviews are carried out to understand the possible impact of not 
performing a maintenance task on schedule, applicable compensatory 
measures are instituted to manage those risks, and understanding and 
acceptance of any added risks are documented.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. General Klotz, what are the long-term goals and 
challenges for DNN, and what initiatives are you leading that will 
ensure we are well-postured to address the proliferation threats that 
might emerge in a decade? Are there opportunities to further improve 
and invest in verification and detection technology?
    General Klotz. Because of its world leadership in scientific and 
technical expertise and programmatic capabilities in the nuclear 
security arena, DOE, mostly through the NNSA, plays a central U.S. 
Government role in pursuing U.S. nuclear security goals. NNSA makes 
full use of all the resources at its disposal to fulfill its 
nonproliferation and counterterrorism missions by:
    <bullet>  Developing and implementing policy and technical 
solutions to eliminate proliferation-sensitive materials and limit or 
prevent the spread of materials, technology, and expertise related to 
nuclear and radiological weapons and programs around the world.
    <bullet>  Providing expertise, practical tools, and technically 
informed policy recommendations required to advance U.S. nuclear 
counterterrorism and counterproliferation objectives.
    <bullet>  Maintaining essential components of the U.S. capability 
to respond to nuclear or radiological crises and manage the 
consequences (domestically or internationally) of civilian radiation 
exposure resulting from a nuclear or radiological incident, especially 
those involving terrorism.
    To pursue these U.S. nuclear security goals within this enduring 
and evolving nuclear threat environment, the NNSA program strategy is 
to organize its nuclear nonproliferation and counterterrorism actions 
into three primary areas that cover the nuclear threat spectrum:
    <bullet>  Prevent non-state actors and additional countries from 
developing nuclear weapons or acquiring weapons-usable nuclear 
materials, equipment, technology, and expertise; and prevent non-state 
actors from acquiring radiological materials for a radiological threat 
device.
    <bullet>  Counter the efforts of both proliferant states and non-
state actors to steal, acquire, develop, disseminate, transport, or 
deliver the materials, expertise, or components necessary for a nuclear 
or radiological threat device or the devices themselves.
    <bullet>  Respond to nuclear or radiological terrorist acts, or 
accidental/unintentional incidents, by searching for and rendering safe 
threat devices, components, and/or radiological and nuclear materials, 
and by conducting consequence management actions following an event to 
save lives, protect property and the environment, and enable the 
provision of emergency services.
    Mr. Cooper. General Klotz, how does DOE plan to afford the $30 
billion or more that will be required to construct and operate MOX? 
Should NNSA re-baseline the MOX project in FY16?
    General Klotz. The Administration remains firmly committed to 
disposing of surplus weapon-grade plutonium. The Consolidated and 
Further Continuing Appropriations Act, 2015, directed that construction 
on the Mixed Oxide Fuel Fabrication Facility (MOX) project continue and 
that cost studies and technology alternative studies be conducted. The 
Department of Energy requested Aerospace Corporation, a federally 
funded research and development center, to assess and validate the 
analysis of options for disposing of 34 metric tons of weapon-grade 
plutonium mandated by Congress. The assessment and validation is 
expected to be completed in late FY 2015. This independent validation 
will inform the final policy decision on what disposition path the 
United States Government will adopt in compliance with the Plutonium 
Management and Disposition Agreement. Once a final decision is made, a 
rebaseline of the MOX project would be required and could take 
approximately 18-24 months to complete.
    Mr. Cooper. General Klotz, is it worth an effort to assess whether 
it would be feasible to use low enriched uranium (LEU) (instead of 
highly enriched uranium) in naval reactor fuel to the next generation 
of aircraft carriers?
    General Klotz. It is feasible but is not practical or cost 
effective with our current technology. Today, using LEU would increase 
the amount of refuelings required, which has the follow-on effect of 
requiring additional ships to meet the same military requirements. 
Theoretically, advances in technology could partially recover the loss 
in core-life from that which we have today in our HEU cores, but we 
would need a significant R&D effort to develop those technologies. 
Further effort would then be required to design the LEU reactor plant 
and other associated systems before we would be ready to build an LEU 
powered ship.
    Mr. Cooper. Would there be any benefit to assessing the potential 
for LEU in naval fuel, such as nonproliferation or security benefits 
even if there might not be any driving military benefits?
    General Klotz. If we could develop the technology to the point 
where we use exclusively LEU, it would ultimately have a non-
proliferation benefit because we would no longer require HEU for naval 
nuclear propulsion.
    Security costs would also be reduced, as HEU facilities have 
greater requirements, but we would still require a substantial security 
presence in terms of physical infrastructure and manpower.
    Mr. Cooper. Would this help sustain the necessary R&D funding and 
capability for Naval Reactors?
    General Klotz. Developing the technologies required to use LEU in 
our plants would be a substantial, multi-year research effort that 
works at the cutting edge of nuclear science. Advanced fuel development 
would sustain one area of unique expertise that the Naval Reactors 
Program relies upon to deal with the day-to-day issues involved in 
naval reactor design, construction, operation, and disposal, which 
require a detailed understanding of naval fuel. Naval fuel performance 
knowledge is unique and exists only within the Naval Reactor Program. 
Advanced fuel development attracts talent and maintains our knowledge 
base.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. General Klotz, what are the risks of NNSA modernization 
plan, including executing 4-5 concurrent life-extension programs and 
overseeing major construction projects at Y-12 and Los Alamos National 
Laboratory in the 2020s?
    General Klotz. NNSA has developed long term modernization efforts 
for the nuclear security enterprise described in the FY 2016 Stockpile 
Stewardship and Management Plan. Modernization efforts for warheads 
through approved Life Extension Programs face a number of risks. First, 
the ability to certify designs that include new or updated material 
combinations or surety features is a challenge for life extension 
programs in the absence of underground testing. To address this 
challenge, the national security laboratories have improved their 
fundamental understanding of physics package interactions through 
numerous enhanced physics experiments, greater computing power, and 
advanced simulations. Second, NNSA must mature technologies and 
components to transform the stockpile over the next twenty years. 
Technology maturation enables development and delivery of design-to-
manufacturing capabilities to meeting current and future nuclear 
weapons needs for the Nation's stockpile. NNSA uses the Component 
Maturation Framework, which is a portfolio management tool used to 
integrate preliminary scope, proposed technology and manufacturing 
readiness levels, and planning estimates, to inform decisions on 
component development, technology maturation and timely insertion. NNSA 
is establishing plans to mature technologies sufficiently in advance of 
planned insertion points to cost-effectively minimize risk. Third, 
although the president's budget fully funds these activities, cuts due 
to sequestration can put them at risk.
    For major construction projects, NNSA is committed to delivering 
its capital asset projects on budget and schedule. Over the past four 
years, NNSA has focused on putting the right policies, principles, 
people, processes, procedures, and partnerships in place to implement 
the Office of Management and Budget's (OMB) Circular A-11 for Capital 
Acquisition Projects, Department of Energy Order 413.3B on project 
management, and the Secretary's January 2015 enhanced project 
management policies. In 2013, GAO narrowed the focus of its High Risk 
list for NNSA to contracts and projects with a Total Project Cost 
greater than $750 million as a result of the improvements NNSA has been 
making in its contract and project management. NNSA is confident that 
the same policies and processes for projects less than $750 million are 
scalable to the major system acquisition projects at Los Alamos 
National Laboratory and Y-12.
    Following are risks to NNSA's portfolio of construction projects:
    <bullet>  Escalation on commodities and equipment procurements
    <bullet>  Difficulties attracting and retaining nuclear qualified 
workers at assumed labor rates
    <bullet>  Availability of vendors qualified to produce materials 
and equipment to meet current nuclear construction standards (NQA-1)
    <bullet>  Changes to project requirements, codes, and standards 
Delays in authorizations to start construction activities
    Mr. Larsen. Do you have the expertise and management in place to 
lower the risk of schedule slips and cost increases? Are you confident 
NNSA can execute this plan?
    General Klotz. NNSA has the expertise and management processes in 
place to effectively plan and execute planned weapon system 
modernization activities. NNSA has established an office (NA-19) to 
focus on weapon system modernization. To control costs, earned value 
management practices are being implemented for every weapon system 
acquisition. The NNSA weapons workload has grown over the last several 
years to include 3 life extension programs and one major weapon system 
alteration, and each of these programs requires trained and qualified 
federal managers and selected subject matter experts. NNSA has 
developed staffing plans that will, over time and with Congressional 
support, align federal resources required to execute our assigned 
program of work.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. General Klotz, is there a plan for retiring B83 and 
W76-0? What is the timeline?
    General Klotz. Both the B83 and W76-0 are planned to be retired 
once confidence is gained in the B61-12 and W76-1 Life Extension 
Programs (LEPs), respectively. Specific planned retirement dates can be 
provided in a classified response.
    Mr. Garamendi. General Klotz, there is some concern that the 
second-line of defense funding for fixed portal monitors at ports may 
not provide the best value for the funding. Do you agree? Why or why 
not?
    General Klotz. The fixed radiation portal monitors deployed by 
NNSA's Nuclear Smuggling Detection and Deterrence (NSDD) Program 
(formerly known as the Second Line of Defense) are a critical element 
of the U.S. Government's layered approach to countering the threat of 
illicit trafficking. NSDD provides international partners with a suite 
of tools, including fixed, mobile and handheld detection equipment, 
training, and technical support to enhance their capabilities to 
detect, deter and interdict the illicit trafficking of nuclear and 
radiological materials. Before deploying equipment, NSDD considers a 
wide range of factors, including trafficking pathways, deployment 
environments, and partner capabilities in order to determine the most 
appropriate mix of equipment to counter the threat of smuggling in a 
particular country or region.
    NSDD's fixed portal monitors work in concert with mobile detection 
systems to provide partners with multiple tools to prevent nuclear 
smuggling. Given the consequences of a nuclear or radiological device 
incident, it is imperative that all available tools be brought to bear 
to create a robust and layered defense against nuclear smuggling.
    Regarding the capabilities of the fixed portal monitors, they are 
effective in detecting some special nuclear materials as well as 
radiological materials that could be used in a radiological dispersal 
device (RDD) or radiological exposure device (RED). Further, fixed 
portal monitors have detected materials of concern in the past. More 
detail on specific interdiction cases, as well as portal monitor 
capabilities, can be provided in a classified setting. Fixed portal 
monitors also help deter trafficking by complicating potential 
smugglers' task, forcing them to use alternate means that increase the 
probability of detection.
    Mr. Garamendi. General Klotz, what is the impact of Russia 
withdrawing from cooperation with the United States on securing and 
removing fissile material in Russia? What are the alternatives to 
ensure these materials are not stolen or diverted?
    General Klotz. Material protection, control and accounting (MPC&A) 
cooperation with key non-Rosatom sites and organizations is continuing 
under the Multilateral Nuclear and Environmental Programme in the 
Russian Federation (MNEPR) framework agreement, as is cooperation at a 
limited number of Rosatom sites and organizations. However, Rosatom 
informed us last December that existing cooperation would cease with 
most Rosatom nuclear sites and organizations as of the end of 2014.
    Existing work will continue in the near future to complete security 
upgrades and sustainability work directly with a subset of Rosatom and 
non-Rosatom sites. The Russian decision to scale back cooperation has 
accelerated the shift from assistance to technical engagement on key 
foundational elements of modern and effective security. Given that 
Russia maintains the largest holdings of weapons-usable material, DOE/
NNSA will continue to seek engagement on nuclear material security best 
practices with Russian sites and organizations. This includes topics 
such as training, regulatory development and inspections, and 
transportation security.
    DOE/NNSA also expects to continue cooperation with Russia and third 
parties, including the repatriation of Russian-origin highly enriched 
uranium (HEU).
    DOE/NNSA will also work to maintain nuclear security relationships 
with neighboring countries, offering continued training and training-
center support to also maintain regional capabilities. We will continue 
to help strengthen border and port security programs with partner 
countries around Russia, to enable detection and interdiction of any 
trafficked nuclear material, including consideration of additional 
measures that would be prudent to pursue.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. The President's budget request clearly supports Uranium 
enrichment technology. In your opinion, do you find that maintaining 
the American Centrifuge capability is important?
    General Klotz. A reliable supply of enriched uranium is required to 
meet U.S. national security requirements. Any enrichment technology 
used to meet these requirements, should the interagency determine that 
such technology is the best way forward, must be U.S. origin. Enriched 
uranium provided via foreign technology, even if located in the U.S., 
may not be used for national security purposes due to international 
peaceful-use assurances. The President's budget request maintains the 
operability of the centrifuge technology at the pilot plant in Piketon, 
OH, and the development and test facility in the East Tennessee 
Technology Park (ETTP) Building K-1600. Maintaining these near-term 
domestic-origin technologies that could produce low enriched uranium 
unencumbered by peaceful-use restrictions is important while U.S. 
Interagency Policy Committee develops the best path forward to meet our 
national security requirements for enriched uranium.
    Mr. Turner. Additionally, do you agree that with further 
development and deployment of U.S. Uranium enrichment technology will 
help meet future security needs?
    General Klotz. A domestic uranium enrichment capability would meet 
national security and nonproliferation missions that require 
unobligated low-enriched uranium (LEU) for commercial light water 
reactors involved in tritium production, high assay LEU for research 
reactors, and eventually highly enriched uranium (HEU) for Naval 
Reactors. The Department will provide a report to Congress in the near 
future that will inform discussions regarding the path forward for 
meeting the nation's needs for unencumbered enriched uranium.

                                  [all]
</pre></body></html>
